<html>
<title> - THE FUTURE OF LEARNING: HOW TECHNOLOGY IS TRANSFORMING PUBLIC SCHOOLS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 THE FUTURE OF LEARNING: HOW TECHNOLOGY IS TRANSFORMING PUBLIC SCHOOLS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 16, 2009

                               __________

                           Serial No. 111-28

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-208 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 

























                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director

























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 16, 2009....................................     1

Statement of Members:
    Castle, Hon. Michael, a Representative in Congress from the 
      State of Delaware..........................................     5
        Prepared statement of....................................     6
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, prepared statement of........    71
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bergland, Jennifer, Bryan Independent School District........    24
        Prepared statement of....................................    25
    Chopra, Aneesh, chief technology officer, White House Office 
      for Science and Technology.................................     9
        Prepared statement of....................................    10
    Hartschuh, Wayne, Ph.D., executive director, Delaware Center 
      for Educational Technology, Delaware Department of 
      Education..................................................    34
        Prepared statement of....................................    36
    Kinney, Scott, vice president of media and technology, 
      outreach and professional development, Discovery Education.    19
        Prepared statement of....................................    20
    McAuliffe, John, general manager, Educate Online Learning, 
      LLC........................................................    41
        Prepared statement of....................................    43
    Real, Abel Alejandro, sophomore, East Carolina University....    29
        Prepared statement of....................................    31
    Short, Lisa, middle school teacher, Montgomery County 
      (Maryland) Public Schools..................................    16
        Prepared statement of....................................    17


                        THE FUTURE OF LEARNING:
                     HOW TECHNOLOGY IS TRANSFORMING
                             PUBLIC SCHOOLS

                              ----------                              


                         Tuesday, June 16, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:05 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Scott, Woolsey, 
Hinojosa, Tierney, Holt, Hirono, Altmire, Hare, Fudge, Polis, 
Tonko, Petri, Castle, Ehlers, Biggert, and Cassidy.
    Staff present: Paulette Acevedo, Legislative Fellow, 
Education; Tylease Alli, Hearing Clerk; Alice Cain, Senior 
Education Policy Advisor (K-12); Adrienne Dunbar, Education 
Policy Advisor; Curtis Ellis, Legislative Fellow, Education; 
Denise Forte, Director of Education Policy; David Hartzler, 
Systems Administrator; Fred Jones, Staff Assistant, Education; 
Jessica Kahanek, Press Assistant; Sharon Lewis, Senior 
Disability Policy Advisor; Ricardo Martinez, Policy Advisor, 
Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness; Daisy Minter, Financial Administrator; Alex 
Nock, Deputy Staff Director; Joe Novotny, Chief Clerk; Lillian 
Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Lisa Pugh, Legislative 
Fellow, Education; Melissa Salmanowitz, Press Secretary; 
Margaret Young, Staff Assistant, Education; Mark Zuckerman, 
Staff Director; Stephanie Arras, Minority Legislative 
Assistant; James Bergeron, Minority Deputy Director of 
Education and Human Services Policy; Robert Borden, Minority 
General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Alexa Marrero, Minority Communications 
Director; Susan Ross, Minority Director of Education and Human 
Services Policy; Mandy Schaumberg, Minority Education Counsel; 
Linda Stevens, Minority Chief Clerk/Assistant to the General 
Counsel; and Sally Stroup, Minority Staff Director.
    Chairman Miller [presiding]. A quorum being present, the 
committee will come to order. I want to welcome everybody to 
this morning's hearing.
    This is the first in a series of hearings on the future of 
learning. In this economy, it is more important than ever to 
ensure that every student in every classroom has the 
opportunity to grow, thrive, and achieve to their fullest 
potential. This is becoming increasingly important as our 
competitiveness abroad has shifted.
    Several years ago, Speaker Pelosi asked us to come together 
around an innovation agenda. We went to Stanford University and 
talked to the best in the high tech, biotech, and venture 
capital fields.
    We talked about innovation and discovery, believing that 
discovery and innovation are really the only sustainable 
sources of economic growth in the world today.
    What evolved from these conversations was an interesting 
definition of the kind of person employers would want to bring 
to their companies. They want workers who can work across 
companies, across countries, and across the continents.
    They want the most diverse workforce in history to assemble 
solutions to emerging problems stemming from the most diverse 
client base in history.
    Unfortunately, this does not sound like what we are 
preparing today's kindergarten students to participate 16 years 
from now or even 12 years from now. This is not today's 
education system in America.
    But to quote Secretary Duncan, we now face the opportunity 
of a lifetime to work with our schools and other partners to 
build an education system that benefits students, families, our 
economy, and our country for generations to come.
    For quite some time, I have been cataloging all the reports 
that acknowledge that we are running an industrial-based 
education system for an agrarian society on an agrarian clock.
    You might not believe me, but it has been very interesting. 
It acknowledges a fundamental mismatch that we haven't paid 
much attention to other than a rather clever anecdote from time 
to time acknowledging that fact.
    Today's students use technology in almost everything they 
do. From the moment they wake up from the digital alarm clocks, 
listening to their iPods as they walk to school, communicating 
with their friends on Twitter and Facebook, or sharing 
information on YouTube they are used to customizing their 
worlds at the click of a computer.
    But school today for far too many kids does not look like 
the rest of their world. It does not capitalize on technology's 
potential to engage students and to improve learning.
    One critical element of learning in the future must be to 
provide technology-rich classrooms for all students. Research 
shows that when technology is systemically integrated into 
classrooms and used by digitally-savvy staff, it can improve 
teacher effectiveness and student achievement, and reduce the 
dropout rate.
    And as my grandkids tell me, it makes school a lot more 
fun. We call that engagement. Take, for example, the Stephen F. 
Austin Middle School in Bryon, Texas where the students were 
given laptops to help integrate technology tools into their 
daily instruction.
    This led to an improvement in student achievement in both 
math and reading. In the 7th grade alone, reading scores 
increased by 13 percent and math scores by 14 percent.
    At Dionne Warwick Institute in East Orange, New Jersey, 4th 
and 5th grade students wrote and recorded educational raps 
about civil rights leaders for a Black History project.
    This project also helped them demonstrate their 
understanding of math strategies and concepts. Students who 
participated in these projects saw their math scores increase 
by an average of 9.6 points and social studies scores increase 
by 9.4.
    It seems to me that if technology can substantially 
increase student engagement, raise student achievement and 
graduation rates, and prepare our students for college and the 
workforce, then we must do everything we can do to support 
these types of innovation in all our classrooms.
    But this is about more than just the future of our 
workforce. It is about the future of our democracy. The 
options, opportunities, and availability that technology can 
bring to a classroom must be available to everyone.
    And I am extremely encouraged that we expanded this access. 
We will make more progress in closing the achievement gap. I am 
encouraged that we are taking steps in the right direction.
    This Congress has already endorsed several important 
pillars of reform included in the American Recovery and 
Reinvestment Program, particularly in Secretary Duncan's Race 
to the Top, which has unprecedented potential to shape the 
future of learning in our nation.
    It also included $650 million for educational technology 
state grants, and I believe this money can be well spent. In 
any industry, it is considered smart business planning to look 
to the future and how a company and the industry will change, 
grow, and adapt.
    If we are serious about creating world-class schools and 
regaining our competitive edge, then it is time we start 
thinking about education the same way.
    Today's hearing will explore how innovation and technology 
are changing the way teachers teach and students learn. We will 
see firsthand how transformational power of technology can 
unleash the talents of our teachers and students so they will, 
in fact, be able to use discovery and innovation to assemble 
solutions to the problems that future generations will face.
    I would like to thank our witnesses for being here, and I 
look forward to your testimony.
    Now I would like to recognize Congressman Castle for the 
purpose of making an opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    We're here today for the first in a series of hearings on the 
Future of Learning.
    In this economy, it is more important than ever to ensure that 
every student in every classroom has the opportunity to grow, thrive 
and achieve to their fullest potential. This is becoming increasingly 
important as our competitiveness abroad has shifted.
    Several years ago, Speaker Pelosi asked us to come together around 
an innovation agenda. We went to Stanford and talked to the best in the 
high-tech, biotech fields, and the venture capital fields.
    We talked about innovation and discovery--believing that discovery 
and innovation are really the only sustainable sources of economic 
growth in the world today. What evolved from these conversations was an 
interesting definition of the kind of person they would want to bring 
into their companies. They want workers who can work across companies, 
countries, and continents.
    They want the most diverse workforce in history, to assemble 
solutions to emerging problems stemming from the most diverse client 
base in history.
    Unfortunately, that does not sound like what we are preparing 
today's kindergarten students to participate in 16 years from now or 
even 12 years from now. That is not today's education system in 
America.
    But, to quote Secretary Duncan, we now face the opportunity of a 
lifetime to work with our schools and other partners to build an 
education system that benefits students, families, our economy and our 
country for generations to come.
    For quite some time, I have been cataloging all the reports that 
acknowledge that we are running an industrial-based education system 
for an agrarian society on an agrarian clock.
    You might not believe me--but it's all been very interesting. It 
acknowledges a fundamental mismatch that we haven't paid much attention 
to other than as kind of a clever anecdote.
    Today's students use technology in everything they do.
    From the moment they wake up to the digital alarm clocks, listening 
to their iPods as they walk to school, communicating with their friends 
on Twitter and Facebook, or sharing information on YouTube--they are 
used to customizing their worlds at the click of a computer.
    But school today, for far too many kids, does not look like the 
rest of their world, and does not capitalize on technology's potential 
to engage students and improve learning. One critical element of 
learning in the future must be to provide technology-rich classrooms to 
all students.
    Research shows that when technology is systemically integrated into 
classrooms and used by digitally-savvy staff, it can improve teacher 
effectiveness and student achievement, and reduce the dropout rate. 
And, as my grandkids tell me, it makes school a lot more fun.
    Take for example, Stephen F. Austin Middle School in Bryan, Texas 
where the students were given laptops to help integrate technology 
tools into their daily instruction. This led to improvement in student 
achievement in both math and reading.
    In the 7th grade alone, reading scores increased by 13 percent and 
math scores by 14 percent.
    At the Dionne Warwick Institute in East Orange, New Jersey, fourth-
and fifth-grade students wrote and recorded educational raps about 
civil rights leaders for a Black History Project.
    This project also helped them demonstrate their understanding of 
math strategies and concepts. The students who participated in these 
projects saw their math grades increase by an average of 9.6 points, 
and social studies scores increase by 9.4.
    It seems to me that if technology can substantially increase 
student engagement, raise student achievement and graduation rates, and 
prepare our students for college and the workforce, then we must do 
everything we can do to support these types of innovations in all our 
classrooms.
    But this is about more than just the future of our workforce. This 
is about the future of our democracy.
    The options, opportunity, and availability that technology can 
bring to a classroom must be available to everyone. And I am extremely 
encouraged that as we expand this access, we will make more progress in 
closing the achievement gap.
    I'm encouraged that we're taking steps in the right direction.
    This Congress has already endorsed several important pillars of 
reform included in the American Recovery and Reinvestment Plan, 
particularly in Secretary Duncan's Race to the Top Fund, which has 
unprecedented potential to shape the future of learning in our nation.
    It also included $650 million for educational technology state 
grants. I believe this is money well spent.
    In any industry, it's considered smart business planning to look to 
the future--and how a company or an industry will change, grow adapt.
    If we're serious about creating world-class schools and regaining 
our competitive edge, then it's time we start thinking about education 
the same way.
    Today's hearing will explore how innovation and technology are 
changing the way teachers teach and students learn.
    We'll see first-hand how the transformational power of technology 
can unleash the talents of our teachers and students so that they will, 
in fact, be able to use discovery and innovation to assemble solutions 
to the problems that future generations will face.
    I'd like to thank our witnesses for being here today and I look 
forward to hearing your thoughts.
                                 ______
                                 
    Mr. Castle. Good morning, and thank you, Chairman Miller, 
for holding today's hearing. I am pleased that the committee is 
exploring the timely issue of how technology is transforming 
our nation's public schools.
    More often, people are using different technologies to 
gather and disseminate information. I believe that in today's 
technologically driven world, states and school districts 
throughout the country had the opportunity to use these new 
technologies to improve academic achievement and help America's 
children compete in a world where new technology is the norm, 
not a novelty.
    In many instances, this is already happening in schools 
today. The International Society for Technology and Education 
and the Consortium for School Networking has studied the impact 
of technology in schools. They have found that technology can 
help students improve in reading, writing, and math.
    Technology also can improve a student's critical-thinking, 
problem-solving, and communication skills. Technology can help 
children with disabilities interact with their peers and better 
understand the subject matter.
    Adaptive technology can also provide accommodations for the 
assessment process giving these children the opportunity to 
learn and achieve and demonstrate their success just like 
everyone else in the class.
    Children in remote and rural areas benefit from technology 
too. They are no longer limited to the few books available down 
the road at the county library. Through technology, they now 
have access to all the libraries in the world right from their 
homes.
    And for children in rural communities whose schools are not 
making adequate yearly process, technology opens up a new world 
of tutoring options that were not available before the era of 
the Internet and interactive online learning.
    Technology makes more parental options available through 
supplemental education services under ``No Child Left Behind'' 
to students who might not otherwise have access to them simply 
because of geography. But technology helps more than the 
students. Studies have shown that administrators can use 
technology to approve efficiency, productivity, and decision-
making at their schools.
    Technology also helps teachers meet professional 
requirements so they are qualified in their subjects. They also 
can use networks to learn and share the latest teaching 
techniques. Even parents can benefit. Through Internet-based 
programs, they can monitor their children's attendance, 
homework, and performance.
    Technology is a wonderful and necessary addition to our 
schools, but it hasn't come for free. Over the years, Congress 
has provided hundreds of millions of dollars to schools to 
acquire and use technology, and that is before the additional 
funding provided in the recent American Recovery and 
Reinvestment Act.
    In fact, in fiscal year 2009, the Education Technology 
State Grant program received approximately $270 million. 
Technology can be a transformative force in our classrooms, and 
I am a strong supporter of innovation and creativity.
    However, as we examine new technologies and hear from this 
distinguished panel of witnesses on how new technologies may be 
incorporated into the classroom to improve student achievement, 
we must remain mindful of these trying economic times, and 
ensure all federal funds for education technology serve a 
purpose and approve opportunities for students.
    I look forward to learning about what is happening in 
classrooms at the cutting edge and hopefully exposing other 
educators to the types of tools and resources available. And, 
of course, I welcome the witnesses here today.
    And just a word of caution, a concern of mine is as we deal 
with technology, I worry that we get too far ahead of ourselves 
sometimes in terms of what is next instead of how to 
incorporate what is there to make sure it is working correctly.
    And, hopefully, we can address that today too.
    Thank you, Mr. Chairman Miller. I yield back.
    [The statement of Mr. Castle follows:]

Prepared Statement of Hon. Michael Castle, a Representative in Congress 
                       From the State of Delaware

    Good morning and thank you, Chairman Miller, for holding today's 
hearing. I am pleased the Committee is exploring the timely issue of 
how technology is transforming our nation's public schools.
    More often, people are using different technologies to gather and 
disseminate information. I believe that in today's technologically-
driven world, states and school districts throughout the country have 
the opportunity to use these new technologies to improve academic 
achievement and help America's children compete in a world where new 
technology is the norm, not a novelty.
    In many instances, this is already happening in schools today. The 
International Society for Technology in Education and the Consortium 
for School Networking have studied the impact of technology in schools.
    They have found that technology can help students improve in 
reading, writing, and math.
    Technology also can improve a student's critical thinking, problem 
solving, and communication skills.
    Technology can help children with disabilities interact with their 
peers and better understand the subject matter. Adaptive technology can 
also provide accommodations for the assessment process, giving these 
children the opportunity to learn and achieve--and demonstrate their 
success--just like anyone else in the class.
    Children in remote and rural areas benefit from technology, too. 
They are no longer limited to the few books available down the road at 
the county library. Through technology, they now have access to all the 
libraries in the world, right from their homes.
    And for children in rural communities whose schools are not making 
adequate yearly progress, technology opens up a new world of tutoring 
options that were not available before the era of the Internet and 
interactive online learning.
    Technology makes more parental options available through 
Supplemental Educational Services under NCLB to students who might not 
otherwise have access to them simply because of geography.
    But technology helps more than the students.
    Studies have shown that administrators can use technology to 
improve efficiency, productivity, and decision making at their schools.
    Technology also helps teachers meet professional requirements so 
they are qualified in their subjects. They also can use networks to 
learn and share the latest teaching techniques.
    Even parents can benefit. Through Internet-based programs, they can 
monitor their children's attendance, homework, and performance.
    Technology is a wonderful and necessary addition to schools--but it 
hasn't come for free.
    Over the years, Congress has provided hundreds of millions of 
dollars to schools to acquire and use technology. And that's before the 
additional funding provided in the recent American Recovery and 
Reinvestment Act. In fact, in Fiscal Year 2009, the Education 
technology State Grant Program received approximately $270 million.
    Technology can be a transformative force in our classrooms, and I 
am a strong supporter of innovation and creativity. However, as we 
examine new technologies and hear from this distinguished panel of 
witnesses on how new technologies may be incorporated into the 
classroom to improve student achievement, we must remain mindful of 
these trying economic times and ensure all federal funds for education 
technology serve a purpose, and improve opportunities for students.
    I look forward to learning about what's happening in classrooms at 
the cutting edge, and hopefully exposing other educators to the types 
of tools and resources that are available.
    With that, I welcome our witnesses today. I look forward to hearing 
your testimony.
    Thank you, Chairman Miller. I yield back.
                                 ______
                                 
    Chairman Miller. Thank you, and I would like now to 
introduce our distinguished panel.
    Aneesh Chopra is the nation's first chief technology 
officer. Prior to his appointment by President Obama, Mr. 
Chopra served as the secretary of technology under Governor Tim 
Kaine where he led the strategy to effectively leverage 
technology and government reform.
    Prior to joining Governor Kaine's cabinet, he served as the 
managing director of the Advisory Board Company, a publicly 
traded healthcare think tank. Mr. Chopra received his B.A. from 
John Hopkins University and graduated with a master's in public 
policy from Harvard University's John F. Kennedy School of 
Government.
    Lisa Short is currently a middle school science teacher in 
Maryland's Montgomery County Public Schools. Ms. Short is 
successfully using interactive white boards to improve student 
engagement and student achievement through interactive science 
lessons that require students to demonstrate their 
comprehension of science content through technology tools. She 
teaches students with diverse needs including the English 
language learners.
    Abel Real is a student in East Carolina University, where 
he is studying nursing. Prior to entering college, Mr. Real was 
a student in Green County, North Carolina, a rural community 
that uses technology in teaching core curricular areas to 
improve student achievement.
    He credits the innovative instructional approaches that he 
was exposed to in school in helping him to earn a college 
scholarship. He is the first in his family to attend a 
university.
    Scott Kinney is the vice president of Outreach and 
Professional Development at Discovery Education. He manages a 
large portfolio of professional development efforts and also 
serves as the education liaison for public policy.
    Mr. Kinney has co-authored multiple articles about the use 
of technology as a tool to help differentiate instruction.
    Jennifer Bergland is the chief technology officer at the 
Bryan Independent School District. Prior to becoming technology 
officer, Ms. Bergland spent 17 years teaching social studies.
    The Bryan Independent School District was recently honored 
with the Consortium of School Networking team awards, which is 
presented each year to the district that has used technology to 
transform learning.
    Ms. Bergland graduated from Bryan High School, received a 
B.A. in Political Science from Southern Nazarene University, 
and a masters in Educational Administration from Texas A&M.
    And, Mr. Castle, I believe, is going to introduce our next 
witness.
    Mr. Castle. Thank you, Mr. Chairman.
    I would like to welcome Dr. Wayne Hartschuh to the panel. 
Dr. Hartschuh is the executive director of the Delaware Center 
for Educational Technology within the Delaware Department of 
Education.
    He is also a member of the State Educational Technology 
Director's Association Board of Directors, currently serving as 
chair of the board.
    Dr. Hartschuh originally came to Delaware in 1995 as the 
director Instructional Technology at the Delaware Department of 
Public Instruction and moved to the Delaware Center for 
Educational Technology in 1996 as the chief education officer 
before becoming the executive director in 1998.
    In his time at the Delaware Department of Education, the 
Delaware Center for Educational Technology wired every public 
school classroom in the state of Delaware for Internet access 
between 1996 and 1998 making Delaware the first state in the 
nation to wire every classroom in the state.
    For this effort, the Center received the computer world's 
Smithsonian award. Wayne has also received the Council of State 
Government's Innovations Award on behalf of DCET, which is the 
Delaware Center for Educational Technology.
    Wayne has his bachelor's degree in mathematics from Arizona 
State University; his master's of science in school computer 
studies from Northwest Missouri State University; and a Ph.D. 
in curriculum and instruction with a specialty in educational 
media and computers from Arizona State University.
    Prior to coming to Delaware, Wayne taught and coached at 
Buckeye Union High School in Buckeye, Arizona between 1977 and 
1987; taught and coached at Central High School in Kansas City, 
Missouri from 1991 to 1993; and was an assistant professor at 
the University of Findlay in Findlay, Ohio from 1994 until 
1995.
    And I would just add that I was last Governor of Delaware 
in 1992, and I don't think any of this was started then. So we 
congratulate you, Wayne, for all the work you have done.
    Chairman Miller. Welcome to the committee.
    Our final witness will be Mr. John McAuliffe, who joined 
Education Online Learning as its chief financial officer in 
February 2008 and became the general manager in June 2009.
    Prior to Educate Online, Mr. McAuliffe was the senior vice 
president and chief financial officer at Thompson Prometric, 
the world's largest computer-based testing organization.
    Welcome to the committee for all of you.
    We are going to begin with you, Mr. Chopra. When you begin 
speaking, you won't see it, because it is not in front of you, 
but you have to pay attention to it. You understand? Okay.
    A green light will go on, and then when there is 1 minute 
remaining in your time, a yellow light will go on, and we would 
like you to use that time to summarize and to finish, and then 
there will be a red light. But we want you to finish in a 
coherent fashion, so don't panic when you see the red light. 
But don't dawdle.
    Welcome.
    Mr. Chopra. [OFF MIKE]
    Chairman Miller. Is your mic on?
    Mr. Chopra. [OFF MIKE]
    Chairman Miller. It is?
    Mr. Chopra. It is better now.
    Chairman Miller. It is now.

  STATEMENT OF ANEESH CHOPRA, CHIEF TECHNOLOGY OFFICER, WHITE 
            HOUSE OFFICE FOR SCIENCE AND TECHNOLOGY

    Mr. Chopra. It is now. Technology. Where is that IT guy? 
Okay. Mr. Chairman, and distinguished members of the committee, 
it is indeed an honor to appear before you on this extremely 
important subject.
    As the father of two young girls, I can assure you that 
today's topic is both a professional and a personal priority 
for me.
    President Obama understands that in order to renew American 
competitiveness, we need to harness the power and potential of 
technology and innovation to revamp our educational system. You 
said it very well yourself in your opening remarks, Mr. 
Chairman.
    We will need a greater proportion of our population with 
college degrees, an increased pipeline of students that 
excelling in the science, technology, engineering, and 
mathematics disciplines, and breakthrough strategies to uncover 
the hidden talent that we know resides throughout our country.
    I am pleased to share my experiences on the role of 
technology and innovation in demonstrating meaningful progress 
against these challenges as we look to the future of learning. 
Beginning on the framework for educational innovation, I would 
like to share with you a few perspectives on where the 
president has put his emphasis.
    We are committed to ensuring that all students are trained 
to use technology to research, analyze, and communicate in any 
discipline. However, we must integrate technology into the 
classroom in ways that research would demonstrate is truly 
helpful in the process of student learning.
    Promising approaches include facilitating public-private 
partnerships in the development of new curriculum incorporating 
emerging technologies; integrating technology throughout the 
classroom to transform the method by which we teach; deploying 
collaboration tools to support teachers in the sharing best 
practices; and developing better student assessments to allow 
teachers and parents to make data-driven decisions on how to 
improve performance.
    We are making great progress on these priorities, and we 
will continue to evaluate their impact. We are very proud of 
the fact, for example, that the OECD recently ranked the United 
States as number one in broadband access to schools, as it is 
built upon the $2.25 billion in annual contribution through the 
E-rate program.
    I have seen the promise of an investment in technology as 
Virginia's secretary of Technology. When properly deployed, it 
can serve as the foundation for technology-led educational 
transformation.
    With your permission, I will hit the highlights on several 
of what I consider to be nearly a dozen innovative proof-of-
concept initiatives that might help you understand better the 
realities on the ground, as I believe, Congressman Castle, you 
asked for.
    Three brief examples: In Virginia, a volunteer panel of 
scientists convened at the governor's request in 2007 to 
evaluate our science, physics, chemistry, and engineering 
curriculum more specifically.
    Led by a retired NASA scientist, a federal collaborator, we 
uncovered a number of opportunities for improvement in the 
content itself, and this group of experts came together and 
issued a report basically calling for some very basic changes: 
the idea that our classrooms should encourage more lab work; 
that we should incorporate emerging technologies into our 
curriculum aligned with the Commonwealth's overall strategic 
goals from an economic development standpoint; and that we 
facilitate the sharing of ideas across the science, technology, 
engineering, and mathematics community for best-practice 
sharing.
    Traditionally, such reports sit in a policy-making process 
for review. But in the opportunities of technology and the 
potential for transformation, Governor Kaine asked that the 
superintendent of public instruction alongside my colleague, 
the secretary of Education, work together to bring together a 
collaboration at no cost to the taxpayers that would help get 
the community to write the physics chapters that would align to 
the Commonwealth's future.
    Modeling and simulation, as an economic discipline, has 
great potential for job creation as does the field of nuclear 
physics. Both of which didn't have content developed in the 
classroom.
    All of that now in less than 6 months using a Web-based 
Wiki-like platform allowed for teachers from all over the 
country to join in writing technology chapters that could be 
used for free by any classroom across the Commonwealth.
    One such school is deploying a netbook platform that will 
have prebaked all of this curricula on it. You can still print 
a hard copy, if you will, for a few bucks at the local print 
shop, but a technology platform that actually is cost effective 
by deferring some of the costs of the upgrade on textbooks that 
wouldn't have had some of this content involved.
    I will share a number of other stories with you, perhaps by 
written statements in light of the time, but simply want to end 
with one final comment: We do see the great power and potential 
of these capacities to improve learning with students with 
disabilities and see tremendous opportunity to uncover that 
hidden talent across this country.
    And I thank you for the opportunity to continue the 
dialogue on this important subject.
    [The statement of Mr. Chopra follows:]

 Prepared Statement of Aneesh Chopra, Chief Technology Officer, White 
                House Office for Science and Technology

    Chairman Miller, Ranking Member McKeon and distinguished members of 
the Committee, it is indeed a great honor to appear before you today. 
As the father of two young girls, I can assure you today's topic is of 
both a professional and personal priority for me.
    President Obama understands that in order to renew American 
competitiveness, we need to harness the power and potential of 
technology and innovation to revamp our educational system. We will 
need a greater proportion of our population with college degrees, an 
increased pipeline of students excelling in STEM fields, and 
breakthrough strategies to uncover the hidden talent we know resides 
throughout our country. I am pleased to share my experiences on the 
role of technology and innovation in demonstrating meaningful progress 
against these challenges as we look to the future of learning.
A Framework for Educational Innovation
    President Obama is committed to ensuring all students are trained 
to use technology to research, analyze and communicate in any 
discipline. However, we must integrate technology into the classroom in 
ways that research demonstrates truly help students learn.
    Promising approaches include facilitating public-private 
partnerships in the development of new curriculum incorporating 
emerging technologies; integrating technology throughout the classroom 
to transform the method by which we teach; deploying collaboration 
tools to support teachers in sharing best practices; and developing 
better student assessments to allow teachers and parents to make 
``data-driven'' decisions on how to improve performance.
    We are making progress on these priorities and we will continue to 
evaluate their impact. We're also proud of OECD's recent ranking of the 
US as #1 in broadband access to schools as it has built upon the $2.25 
billion annual contribution through the E-rate program.
    I've seen the promise of an investment in technology as Virginia's 
Secretary of Technology. When properly deployed, it can serve as the 
foundation for technology-led educational transformation. With your 
permission, I thought to share a few examples from nearly a dozen 
innovative ``proof-of-concept'' initiatives that might better 
demonstrate the future of learning.
    Virginia's Physics Flexbook: In 2007, Governor Kaine challenged a 
volunteer panel of scientists and engineers to review our physics, 
chemistry and engineering curriculum. Led by a now retired NASA 
scientist, Jim Batterson, the panel strongly recommended a focus on 
contemporary and emerging topics that could be updated through an 
online collaboration platform. By July, 2008, and in partnership with 
legislative leaders, the Secretaries of Education and Technology and 
the Superintendent of Public Instruction jointly issued a call for 
volunteer contributors to propose contemporary and emerging physics and 
lab modules. Within six months, a dozen or so authors, at no pay, 
completed ten chapters as a supplement to the traditional textbook 
covering areas key to Virginia's economic growth like modeling and 
simulation, and nuclear physics, available at virginia.ck12.org.
    Powering the demonstration project was a free online collaboration 
platform, CK12, which facilitated a rigorous quality review process and 
design interface for teachers, students and administrators to 
seamlessly incorporate new content into curriculum.
    Albemarle County Schools Superintendent Pam Moran secured board 
approval to purchase low-cost ``netbook'' computers for every physics 
student, pre-loaded with the flexbook. By capturing the savings from 
eliminating the purchase of new physics textbooks, she lowered the 
school's total cost of ownership and has dispatched her instructional 
team to focus on the content her students need to learn in order to be 
globally competitive.
    Learning Without Boundaries and the ``Mobile Learning Apps 
Challenge'': Virginia's Department of Education demonstrated a new 
approach to teaching and learning through the use of wireless mobile 
computing devices on the premise that 93% of 6-9 year olds lived in 
households with a cell phone. To test the benefit of this platform, 
Virginia issued a national application development challenge on the 
problem of poor test scores in 6th grade mathematics (68% pass rate in 
2008, up from 60% in 2007) at www.lwbva.org. With modest prize money 
($5K) we are eagerly anticipating the results by the end of June. Early 
designs have shown tremendous creativity in exploiting the features of 
the iPod Touch to inspire kids to learn fractions, proportions, and 
measurement.
    Virginia ``Open Classroom'' Project: Mecklenburg Public schools, a 
rural district, secured a Governor's Productivity Investment Fund grant 
to lower IT operating costs while delivering greater value for 
classroom instruction and professional development. Through the 
deployment of open collaboration platforms, Mecklenburg has 
dramatically increased the ability for teachers to exchange ideas, 
curriculum ``objects'' and student/parent messaging resources. These 
initiatives delivered $123,000 in cost savings this fiscal year and 
enabled the district to launch www.vaopenclassroom.org as a portal to 
replicate results across dozens of other districts.
    Spirit of Commonwealth--PlugGED In: The real test for 
transformation, however, is in our ability to harness technology to 
uncover hidden talent. Invoking Virginia's ``spirit of Commonwealth'', 
we launched PlugGED In, a bold experiment to connect high school 
dropouts to technology jobs within six months. A broad coalition of 
adult education instructors, community colleges, 4-year institutions, 
and even technology companies built a program that offered an 
accelerated GED, a Microsoft certification, and a project assignment to 
guarantee entry-level tech job interviews for each graduate. We will 
see the results of our first graduating class this July but the 
experience reminds us that every American, regardless of background, 
deserves the chance to compete and win in our technology-based economy.
    I would in closing like to mention the importance of technology as 
an aid to learning for students with disabilities. For example, 
captioning, computer reading and dictation programs and the growing 
availability of instructional materials in convenient accessible 
formats are tremendous advances. The electronic equipment accessibility 
provisions of Section 508 of the Rehabilitation Act and the compliance 
efforts by hardware and software providers have greatly increased the 
capacity of individuals with disabilities to use and benefit from 
technology in education.
    In conclusion, with ubiquitous connectivity, mobile platforms, 
compelling content, well trained teachers, and further research into 
what works, we can deliver a whole new world of learning opportunities. 
We can transform the way teachers teach and students learn.
    I welcome any questions that the Committee may have.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Short? Welcome. I just say to members of the committee, 
our panelists--some will be demonstrating some of the 
technologies they are using. They will be going back and forth. 
Their written statements explain what they are about and what 
they have done and what they have accomplished. So you feel 
free to proceed in the manner in which you are most comfortable 
here.
    Ms. Short. [OFF MIKE]
    Chairman Miller. No. We are adapting here. This is adaptive 
technology. In the old days, you would have thought of this as 
a glitch. This is adaptive technology.
    Ms. Short. Can you hear me if I speak----
    Chairman Miller. Yes.

 STATEMENT OF LISA SHORT, SCIENCE TEACHER, GAITHERSBURG MIDDLE 
            SCHOOL, MONTGOMERY COUNTY PUBLIC SCHOOLS

    Ms. Short. Well, that is an icebreaker. Good morning 
Chairman Miller, Congressman, and guests. I am honored to stand 
here to demonstrate how technology has transformed the 
educational experiences of my students and how it has 
drastically improved my ability to teach students with various 
learning styles and needs.
    I am currently teaching 8th grade science at Gaithersburg 
Middle School in Montgomery County, Maryland, and my middle 
school has a very diverse population of students, and we are 
considered to be a highest needs school.
    Every day, my students walk into school, and they are 
carrying iPods, cell phones, video games, sometimes laptops, 
and the first thing we ask them to do is power down and put it 
all away.
    And up until this year, the only thing I have had to 
capture their attention has been a chalkboard and an overhead 
projector. I have only had this type of technology in my 
classroom for 1 year, but I can't imagine walking into a 
classroom without one now.
    If you could imagine trying to perform your job without the 
use of cell phones, would you technically be able to do it? 
Yes. Would it be efficient? Probably not. But my point that I 
am trying to make is if cell phone technology is available, why 
not utilize it.
    I would like to share a student success story with you. 
Alan Vera Lopez. I had the joy of teaching him for this past 
year. His grade increased from a 63 percent to a 75 percent by 
the end of the year. You may not think that that is 
significant, but for an English language learner who is still 
currently reading at a 3rd grade level, it was huge.
    So how did this increase happen? When you use this type of 
technology in a classroom, student engagement increases. Every 
single student wants to come up to the board to interact with 
this.
    Whenever I incorporate a drag-and-drop page, which I am 
going to demonstrate in a second, every single student's hand 
goes up into the air. It got to the point where I had to 
develop a random number generator in order to make sure that 
everybody had an equal opportunity to come up to the board to 
participate.
    I am going to demonstrate why my students were so 
interested in one of the drag-and-drop pages. I originally had 
another sound byte in here, but they took that out.
    Students love positive reinforcement, and I like to 
incorporate a lot of sound bytes from movies that students have 
seen because, in general, they know that I am trying to meet 
their interest. And in my experiences, whenever you have an 
opportunity to make connections with students like that, 
student academic success increases.
    This type of technology allows teachers to incorporate all 
the various learning styles that students have. I can 
incorporate visual, auditory, tactile, kinesthetic learning 
processes in a single lesson.
    Now for my English language learners and my visual learner, 
I can imbed a 2\1/2\ minute video clip from Discovery 
Education. I can take snapshots of the main ideas, drag it to 
the bottom of the page.
    And let me demonstrate. So after the 2\1/2\ minute video 
clip is finished playing, I can invite students up to the board 
to write down a summary of the main ideas. There is no longer a 
45-minute video that may be hit and miss on the content that 
you have covered in that lesson for the day.
    For my tactile and kinesthetic learners, it is essential 
for them to be able to manipulate things in order for them to 
understand the curriculum. On this page, I have developed a 
lesson that the students could come up to the board, physically 
click on a landmass, manipulate it, and put it together like 
pieces of a puzzle to form a larger landmass. And then, of 
course, you can show them the correct answer.
    So, in closing, I just have one final question for you, and 
I am actually going to ask you to use that odd-looking device 
at your stations--it is called an activote--about what 
percentage of classrooms in the United States have interactive 
whiteboards? (A) 64 percent; (B) 42 percent; or (C) 12 percent. 
Just take a moment. You can see how they are registering at the 
top.
    And in the interest of time, I am going to have to cut you 
off. [Laughter.]
    Now, this has been done in anonymous mode, so no individual 
name has been paired up with a response up on the board, which 
is fantastic for my students, especially when we are trying to 
address prior knowledge, uncover misconceptions, but we have 
data immediately after it is done. And since it is in anonymous 
mode, I get truthful, honest answers.
    The correct answer was (C). [Laughter.]
    And I can also paste the answers up onto the board, save 
them for later usage for team meetings or staff development 
training. The last point I would like to make is that only 16 
percent of classrooms have this technology. If it is available, 
why not use it?
    Right now, the United Kingdom is at 70 percent. Thank you.
    Chairman Miller. If I might just interrupt you while you 
are at the board, if we are all above average here, we got the 
answer right. But if you had (A) and (B) responses, you would 
then be able to do what with that data?
    Ms. Short. If I could show the results again. Whenever the 
students leave and you have an opportunity to take a look at 
your data, you can determine whose activote--I have a database.
    All the kids' names are linked to a specific activote 
number, and I can see who answered what incorrectly, and then I 
can really look at my data to determine are they the same 
students who are missing it over and over again, and what type 
of strategies do we need to incorporate to reach their needs.
    And if the majority of the class answered the question 
incorrectly, then I know tomorrow, I am going to come in and 
re-teach it before I move on in my curriculum. So it is 
immediate feedback.
    [The statement of Ms. Short follows:]

  Prepared Statement of Lisa Short, Middle School Teacher, Montgomery 
                    County (Maryland) Public Schools

    Good morning Chairman Miller, Congressman, and guests. I am honored 
to have this opportunity to demonstrate how technology has transformed 
the educational experiences of my students and how it has drastically 
improved my ability to teach students with various learning styles and 
needs. I am currently teaching 8th grade science at Gaithersburg Middle 
School in Montgomery County, Maryland. My school has a very diverse 
population of students and is considered to be a highest need school.
    Technology plays such a critical role in my students' every day 
social lives and it must be a part of their academic lives. When my 
students walk into school they are carrying cell phones, iPods, video 
games, and sometimes laptops. The first thing they are told to do is 
``power down.'' They are asked to keep all of this technology in their 
lockers so instructional time is not interrupted. Two years ago they 
walked into a classroom that only had a chalkboard and an overhead 
projector. That is no longer the scenario at my school.
    I am happy to share that since the integration of technology in my 
classroom and at my school, student engagement has increased along with 
academic successes. I would like to share a student success story with 
you. Alan Vera Lopez is an English Language Learner who is currently 
reading at a 3rd grade level. His grade at the end of the first marking 
period was a 63 percent. At this point in time, I was still learning 
how to use the interactive board effectively in my classroom. As the 
year progressed, and as I improved my skills with the technology, my 
lessons became more interactive. By the end of the school year his 
grade had improved from a 63 percent to a 75 percent.
    How did this happen? When you use a Promethean board, student 
engagement increases. Every student, including Alan, wanted to come up 
to the board during my lessons to demonstrate their knowledge and show 
off their skills. Whenever I incorporate a ``drag and drop'' page, 
every hand goes up in the air. They all want to participate. I have to 
use a random number generator to ensure that everyone has an equal 
chance of getting selected to use the wand. Using this technology has 
greatly improved my relationship with students. I like to use sound 
bites from movies that students have seen to provide positive 
reinforcement when they answer correctly on the interactive board. 
These small touches show students that I am making an effort to relate 
to their interests. In my experiences, academic success increases when 
these types of connections are made.
    The interactive board allowed me more opportunities to address the 
different learning styles of students. I was able to integrate visual, 
kinesthetic (movement), auditory, and tactile (touch) processes into a 
single lesson. For my English Language Learners, the use of diagrams, 
pictures, and videos were essential for their comprehension of the 
curriculum. During a lesson discussing the theory of continental drift, 
students were able to come up to the board to manipulate landmasses 
like pieces of a puzzle, in order to create the supercontinent Pangaea. 
A great deal of paper was saved that day.
    How has this improved my teaching? At the tips of my fingers, I 
have access to resources that I can use to prepare my lessons. I can 
download video clips from Discovery Education, include a diagram from 
the teacher's edition of our textbook, use images from the Internet, or 
can use published lessons developed by other teachers. I am able to 
make my lessons rigorous and differentiated to meet individual 
student's needs. I'm excited to develop lessons again. My husband is 
also a teacher, and we have an unspoken competition as to who can 
create the best flipchart.
    I use activote questions to assess students' prior knowledge. I 
have immediate feedback as to the foundation that I am getting ready to 
build upon. When I begin teaching a unit, I use the activotes in 
anonymous mode so students don't feel intimidated when they don't know 
the correct answer. After my lesson, the data from the activotes 
allowed me to process my students' feedback efficiently. It enabled me 
to make ``at-the-moment'' decisions as to whether or not my students 
understood the information or if I had to re-teach before moving on to 
the next topic in my curriculum.
    Finally, with this technology, our students have greater access to 
resources at home. I can post my assignments, notes, and lessons on 
Edline. Every student and parent in Montgomery County has access to 
Edline, which allows them to monitor grades, determine when an 
assignment is due or when an assessment will be. If students miss a day 
of instruction, they can log on and print the lesson from that day. 
Parents have a better understanding of what is taking place in the 
classroom and can look at lessons and help their child with their 
homework. Not only can we increase engagement in our schools, we can 
hopefully increase engagement at home.
    Thank you for allowing me this unique opportunity to share my 
successes throughout the past year. It has been a learning experience 
for not only for the students, but for teachers and parents as well. 
Through professional development and trainings, this technology can 
truly change the profession of teaching.
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much.
    Mr. Kinney?

 STATEMENT OF SCOTT KINNEY, VICE PRESIDENT, DISCOVERY EDUCATION

    Mr. Kinney. Thank you Chairman Miller and committee 
members. It is an honor to appear before you today. My name is 
Scott Kinney, I am vice president of Outreach and Professional 
Development for Discovery Education. Previous to joining 
Discovery, I served 14 years in education in the Pennsylvania 
school system.
    Our parent company, Discovery Communications, is the number 
one non-fiction media company in the world with networks such 
as the Discovery Channel, Animal Planet, and the Science 
Channel. At Discovery Education our goal is to provide the most 
up-to-date instructional content in an interactive and engaging 
format, in a sense, bringing the world to their world.
    And this is our student's world. According to the Kaiser 
Family Foundation study, students spend an average of 6\1/2\ 
hours a day with media. Since they don't take weekends off, 
that is 45\1/2\ hours a week, the equivalent of a full-time 
job.
    The National School Board Association commissioned a study 
in which they found that 96 percent of all students engage in 
some form of social networking.
    If MySpace were a country, it would be bigger than France, 
Germany, and the United Kingdom. Given that is the way our 
students prefer to consume information and interact with 
content today, it is no longer acceptable for us to ignore that 
when we choose instructional materials.
    When we do look at the way they choose to interact with 
information, our own research at Discovery Education has shown 
multiple times that this has a positive impact on student 
achievement. When used effectively, media and technology in the 
classroom makes a difference.
    We have looked at several types of schools, whether it is 
LA Unified or schools in rural Virginia. We have looked at 
different grade levels, whether it was math, social studies, or 
science.
    We looked at grades three, six, and eight, and regardless 
of the type of school, the grade level, or subject, when used 
effectively, student achievement increases. So in addition to 
this, we should also be providing this:
    [Play video clip.]
    Mr. Kinney. After countless years of research and multiple 
studies, we know that students learn differently from one 
another and yet, in many places, we continue to teach them as 
if they all learn the same.
    This is an example of an interactive glossary within 
Discovery Education Science, a way for us to provide 
information in multiple formats to reach students' different 
learning styles.
    So we can take one concept like food chains and display the 
text definitions, a short animation on the same concept. If 
that doesn't reach children, we can show them a short video.
    [End video clip.]
    Mr. Kinney. And we can also support their learning with 
images as well. This is an example of one of our virtual labs, 
an environment where students can test hypotheses quickly, 
isolate and manipulate variables in a very safe environment.
    And when we provide media and technology to students and 
let them construct their own meeting, they will undoubtedly 
surprise us. ``Hometown Heroes'' is a documentary created by 
high school students in North Canton city schools in Ohio that 
looks at the impact that their town had on World War II.
    And for the first time, we are seeing a small number of 
progressive states encouraging this transition. In the state of 
Indiana, for example, the state Board of Education sent a 
letter to all school districts, which, and I quote, encouraged 
them, ``that they should feel no obligation to utilize the 
standard form of social studies textbooks.''
    As a result, we are currently working with Indianapolis 
Public Schools to align a number of their pacing guides to rich 
media assets such as video, images, audio, and writing prompts.
    Recently, in Florida, they changed their language that 
defines instructional materials to include electronic media and 
computer courseware or software that serve as a basis for 
instruction for each student.
    On the 8th of this month, Governor Schwarzenegger announced 
that a new initiative in California, which he stated high 
school students will have access to science and math digital 
textbooks by the beginning of the school year. Similar language 
has been proposed in Texas as well.
    The only caution I would introduce today, though, is that 
this is fundamentally a change in the way we are asking 
teachers to engage our nation's students. It is imperative 
that, along with this change, we provide high quality, ongoing 
professional development to teachers as we embark in this new 
way of learning.
    Our own data suggests that there is a great degree of 
variance between districts that utilize ongoing professional 
developments versus those who do not. It is one of the reasons 
that at Discovery we support the Discovery Educator Network, a 
global community of teachers that we bring together both online 
and in person who learn, share, and collaborate the best uses 
of media and technology and share that with others.
    So thank you for your time today. I appreciate your 
attention to this incredibly important matter.
    [The statement of Mr. Kinney follows:]

    Prepared Statement of Scott Kinney, Vice President of Media and 
Technology, Outreach, and Professional Development, Discovery Education

    Thank you Chairman Miller and Mr. McKeon. It is an honor to appear 
before the Committee.
    I address you today as a lifelong educator. I began my career as a 
Technology Specialist in Pennsylvania's public education system, where, 
in a number of roles, I worked to encourage the use of digital media 
and educational technologies in the classroom.
    In my current position at Discovery Education, I serve as the Vice 
President of Media and Technology, Outreach, and Professional 
Development, and am advocating today on behalf of Discovery Education 
for the creative and effective application of educational technologies 
and digital content in America's schools.
    During my tenure as an educator, I've seen a profound shift in 
students.
    Today's technology savvy students enter the classroom possessing a 
wide range of skills that are different than those of their parents and 
teachers. These students are extremely familiar with digital media and 
technology, multitask with ease, process information in many different 
ways, and interact with information and content at what people who did 
not grow up in this environment may see as a dizzying pace.
    The data are clear regarding how much media students are exposed to 
on a daily basis, and how they allocate their personal media budgets 
across a variety of activities that deliver content to them 
instantaneously. They do this in the context of balancing their time 
with other activities that constitute their lives outside classroom 
walls.
    Consuming, processing, and learning from media, in many forms 
simultaneously, is how today's tech-savvy students function. For more 
than six hours per day--eight when you count exposure to multiple forms 
of media at the same time--our students consume media. This constant 
interaction with media equates to a full-time job of learning through 
``untraditional'' means.
    With this data in mind, I ask you to consider the implications and 
the educational community's response.
    Currently, our education system requires students to abandon the 
way they typically interact with content when they walk into school and 
learn in an environment much different from the digital world they 
inhabit outside the classroom. Instead, I believe the educational 
community should utilize the digital tools at our disposal to present 
instructional content in a way that piques students' interest and 
engages them in the meaningful construction of knowledge. In my 
opinion, this is where the future of learning lies.
    Our instructional practices need to be infused with the tools and 
activities from which our students learn naturally. This can include 
methods as simple as using a short two-minute video segment to activate 
prior knowledge at the start of a lesson; providing multiple 
representations of content via images, video and audio; or giving our 
students an opportunity to demonstrate their understanding in different 
media-enhanced ways.
    In doing so we can translate our instructional objectives to our 
students and get them interested in learning the skills, content, and 
ideas they need to develop.
    It is clear how students use digital resources to learn. As we move 
forward to the classrooms of the future, the education community's 
challenge is to find points of intersection between what our students 
do in their free time and our instructional goals. The content and 
services provided by educational providers, such as Discovery 
Education, need to continue to evolve to facilitate student engagement 
and interaction with media.
    Likewise, the federal government and state governments need to 
continue to show leadership in supporting the integration of digital 
content into America's classrooms. Finally, adequate professional 
development resources need to be allocated by school districts to help 
those educators who are not as comfortable with technology to implement 
digital content into their classroom activities, across all subject 
matters.
    While the use of digital content in the classroom is a success 
story, the continuing evolution of media's use holds even more promise.
    The story of content integration into curriculum began in the 1990s 
when educational media migrated from films and filmstrips to VHS tape. 
Videotape and VCRs initially held tremendous promise for the use of 
content in the classroom.
    However, video's advantages over films and filmstrips proved 
minimal. Yes, teachers could fast-forward or rewind videos to utilize 
only the content they thought relevant, but that process was relatively 
laborious and continued to eat into classroom time. Likewise, the 
transition to video did not change the need for schools to continue to 
invest in expensive hardcopy libraries and for teachers to continue to 
compete against one another for the media they wanted for their 
classrooms.
    In January of 2001, a company called United Learning launched a new 
service called Unitedstreaming. Utilizing America's emerging broadband 
network, Unitedstreaming (now known as Discovery Education streaming) 
offered American classrooms thousands of videos, delivered via the 
internet, correlated to state standards, and in 3-5 minute clips that 
teachers could easily integrate into their classroom lessons. No longer 
was media stopping and starting classroom instruction. Rather, digital 
content was being seamlessly integrated into existing curriculum.
    In the fall of 2003, Discovery Education, a division of Discovery 
Communications whose networks include Discovery Channel, Animal Planet, 
and Science Channel, purchased United Learning. Education has always 
been at the heart of Discovery's mission. From its inception, Discovery 
Education has sought to continue to respond to the changing way 
America's students learn. We have sought to create engaging, media-rich 
programs that mirror the way students interact with the world and 
develop high-quality multimedia resources in easy-to-use formats across 
all core-curricular subject areas to reach students.
    Our flagship service, Discovery Education streaming, is available 
in more than half of all U.S. schools, offers teachers and students a 
library of up to 9,000 videos and 70,000 video clips, and is aligned to 
state academic and testing standards. Searchable by keyword, content 
area and grade level, the rich video content and other digital assets 
from Discovery Education enhance curriculum and engage today's students 
in learning.
    Perhaps most importantly in this era of increased accountability in 
education and the compelling argument for the proliferation of 
educational technologies in the classroom, Discovery Education 
streaming is scientifically proven to improve student achievement. Two 
random-assignment, control group studies have revealed significant 
improvement in social studies, science, and math performance for 
students exposed to digital content from Discovery Education streaming.
    In the independent evaluation conducted in rural Virginia in 2002, 
researchers examined third and eighth grade students in two areas of 
study--science and social studies. Improvement among experimental group 
students who received instruction aided by Discovery Education's 
digital content showed a 12.6 percent average increase in achievement 
over control group students.
    In a more recent study conducted in 2004 in the Los Angeles Unified 
School District, researchers examined mathematics performance among 6th 
and 8th grade students. Students who received instruction aided by 
Discovery Education's digital content showed a 3 to 5 percent average 
increase in achievement in math scores over the control group.
    While Discovery Education has sought to directly address the 
changing way students learn, we also have sought to use the power of 
digital content in response to American students' lagging performances 
in the sciences. In an ever-changing global economy, it is evident that 
the current state of U.S. science, technology, engineering and math 
education must be improved to avoid the potential of negatively 
affecting our future financial and national security. Swift action must 
be taken to ensure students do not lose the opportunity to move into 
the new global economy. And it is clear that technology allows 
companies like Discovery Education to react rapidly and effectively to 
new and changing educational needs, by modifying content and creating 
new services to address such needs--such as our recent creation of 
Discovery Education Science, to specifically focus on the needs of 
middle school and elementary school students in science education.
State Support of Using Traditional Textbook Dollars for Digital 
        Content/Indianapolis Curriculum Alignment
    State governments, with the support of forward-thinking 
organizations like SETDA, also are responding to the challenge of 
addressing the way students learn today by supporting a migration from 
traditional textbooks towards digital content.
    One example of this shifting paradigm occurred recently when 
California Governor Arnold Schwarzenegger announced a first-in-the-
nation digital textbook initiative that puts California on the road to 
a technologically advanced, higher quality, and lower cost education 
system.
    According to the Governor's plan, California high school students 
will have access to science and math digital textbooks by the beginning 
of the next school year. A list of standards-aligned digital textbooks 
for subjects such as geometry, algebra II, trigonometry, calculus, 
physics, chemistry, biology/life science, and earth science courses 
will be released this August.
    Phase two of the initiative is currently being developed. This 
includes making digital textbooks available for all grades, 
incorporating interactive content, and eventually creating a statewide 
web site highlighting available books.
    In Indiana, that state's Board of Education also has made changes 
to their textbook adoption process, further embracing digital media. 
Recently, that state's Board of Education voted to issue a blanket 
waiver allowing school corporations and state-accredited nonpublic 
schools to use a broad range of multimedia, computer and Internet 
resources to supplement or replace traditional textbooks. Although the 
state textbook adoption process is still in place, school corporations 
and state-accredited nonpublic schools have the freedom to choose 
materials and resources they feel are best suited to the instructional 
needs of their students.
    In addition, legislation is now in place in Florida allowing school 
districts to purchase digital content, and similar legislation is 
currently under consideration in Texas.
    One of the most innovative approaches school systems are taking in 
their efforts to embrace the future of learning is currently being 
undertaken by Indianapolis Public Schools. Districts struggle with how 
to provide consistent instruction to students across a district. 
Usually, curriculum documents and textbooks are printed and shipped to 
schools. The documents, while helpful to the teachers in laying out a 
roadmap for what is taught during the school year, are static, and to 
update these documents is a major district endeavor in terms of both 
manpower and cost. In addition, each teacher must often juggle several 
of these documents and a textbook in order to plan instruction, so ease 
of use on the part of educators is critical. If the documents are 
difficult to use, chances are the digital content purchased by the 
district along with traditional texts will remain unused as well.
    Discovery Education is responding to this challenge by assisting 
Indianapolis Public Schools in creating easy to use curriculum 
documents for history teachers correlated to the digital services used 
in the district. This content includes videos, articles, writing 
prompts, lesson plans, quizzes, images, and audio files. Upon 
completion of the project, the pacing guides will represent 
comprehensive, dynamic documents that will provide every teacher in the 
district access to the most effective content that both specifically 
addresses the district's learning standards and engages their students 
in learning. For students, access to engaging content is no longer 
dependent on the ability of the teacher to locate the content. This 
complete access with appropriate curricular alignment addresses the 
important issue of educational equity. This is just one example of how 
technology can be used to increase the effectiveness of our children's 
education.
Empowering Teachers with Professional Development
    While the promise of digital content to positively impact the 
future of learning is great, any plan to integrate digital content and 
educational technologies into classroom curriculum is doomed to failure 
without ongoing, job-embedded professional development, supported fully 
by school districts.
    Educators' content knowledge is deepened across the curriculum by 
providing research-based instructional strategies that assist students 
in meeting rigorous academic standards and prepare them to use 
technology to demonstrate their new learning. Successful professional 
development programs are backed with buy-in from district decision-
makers and model best practices: namely, strategies for providing 
students with consistent feedback, utilizing cooperative learning 
structures, embedding digital content into instruction, and promoting 
the creation of content for the Web in an effort to better engage 21st 
century students.
    Similarly, building internal capacity in districts and 
participating schools is of utmost importance in providing school 
systems professional development. District leaders, facilitators and 
teachers must receive continuous support through subsequent 
professional development that includes lesson and unit development, 
modeling, and non-punitive coaching.
    Discovery Education's recent partnership with a large district 
located in the southeast region of the United States to provide 
professional development demonstrates the impact this kind of 
investment in teachers can make and how it can be done effectively. 
Over the course of five months, Discovery Education trained 
approximately 135 school--based facilitators and more than 800 
teachers. The partnership included 82 Title I schools. In our initial 
meetings with the district we conducted a needs-analysis and determined 
three areas of focus for a successful implementation. We believe it is 
this concerted focus on targeted, measureable outcomes that garnered a 
1,500 percent increase in use by both teachers and students of our 
digital library resource.
    So why a 1,500 percent increase in use? We worked with their 
teachers to facilitate the consistent use of multimedia to engage and 
promote learning. Such professional development has empowered teachers 
to embed video into their instructional presentations, to build 
background knowledge, engage students in dynamic learning activities, 
and provide their students alternatives to book reports and traditional 
essays--allowing them to demonstrate what they have learned through the 
creation of blogs, wikis, or movies using editable content from their 
online resources. This is one example of the impact professional 
development can make in ensuring our children can take full advantage 
of the opportunities technology in the classroom can provide.
The Future of Learning
    The way students learn will continue to evolve in the future, and 
providers of educational materials, state governments, and school 
districts will continue to be challenged to meet their needs.
    In my view, these continuing trends represent the future of digital 
learning.
    With data supporting the benefits of integrating digital media into 
classroom instruction, now is the time for every level of government 
and school districts nationwide to accelerate their support for the use 
of effective digital content in schools. It is only with this continued 
support that today's students will reach their full academic potential.
    Thank you for your time and attention to this issue.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Bergland?
    Ms. Bergland. Sorry.
    Chairman Miller. Don't worry. We are mesmerized by what you 
are doing. [Laughter.]

STATEMENT OF JENNIFER BERGLAND, CHIEF TECHNOLOGY OFFICER, BRYAN 
                  INDEPENDENT SCHOOL DISTRICT

    Ms. Bergland. Okay. Thank you, Chairman Miller, and the 
committee for inviting me to testify. My name is Jennifer 
Bergland, and I am the chief technology officer of Bryan 
Independent School District in Bryan, Texas.
    We have over 15,000 students in our district of which 71 
percent are considered economically disadvantaged, and 61 
percent are considered at?risk.
    I want to tell you about how we use technology to empower 
these kids to do things they never thought were possible. In 
2004, Stephen F. Austin Middle School, which we call SFA, 
issued laptops to all students and teachers attending the 
school, which was made possible with funds from a grant through 
the No Child Left Behind Title II, Enhancing Education through 
Technology program.
    We called this program ``One Vision,'' for we had one 
vision for how we wanted one-to-one computing to transform how 
teachers taught and how students learned. I have a short video 
that I want to show you that, hopefully, gives you a brief 
introduction.
    [Play video clip.]
    Ms. Bergland. After 5 years of implementation, the one-to-
one learning environment the school--with the one-to-one 
learning environment, the school has increased achievement, a 
reduction in discipline referrals, had an increase in teacher 
retention, an increased technology proficiency for both 
teachers and students.
    The access to these resources enables the students of SFA 
to be engaged in their learning. Students use online resources 
to perform digital experiments, view virtual manipulations for 
abstract concepts in math and science, discuss topics in social 
studies using an online chat application, and publish their 
writings on the Internet.
    One student at SFA used her laptop to begin writing a 
sequel to the Harry Potter series from the point of view of her 
favorite character. This wasn't an assignment given to her by 
her teacher. This was her passion. The laptop just made the 
writing a little bit easier.
    Having digital content rather than traditional textbooks 
enables the students to use all the Web tools available to 
personalize their learning. Students use these to customize 
their experience on the Internet. They create; they 
collaborate, and they publish in ways that were not possible 10 
years ago.
    The teacher no longer has to possess all the knowledge 
needed to instruct their students. They can truly be the 
facilitator of learning. In fact, students are able to find 
their own teacher using the Internet. These teachers might be a 
video demonstrating a physics problem or step-by-step 
instructions on how to divide fractions.
    This customization of a student's learning has led the 
students to become more independent learners. When each student 
is issued a laptop, the learning is extended beyond the school 
day. One teacher set aside two nights a week to have a live 
homework chat session.
    At first, the teacher was the one answering the other 
students' questions, but soon, the teacher was able to back 
away and let the students answer each other's questions. The 
research conducted on this project indicates that the students' 
use of laptops for home learning was the strongest predictor of 
both reading and mathematics achievement.
    The findings for home learning underscore the important 
role that individual student laptops play in equalizing the 
out-of-school learning opportunities for students in 
disadvantaged families and school situations.
    Before I end, I want to tell you about a small West Texas 
community whose schools also participated in this project. 
Floydada ISD is out in way West Texas. They saw such success in 
their middle school with double-digit gains that they extended 
their project to their high school.
    As a result, the students were able to complete 206 
college-level courses in 2008 for a total of 619 hours. These 
courses not only helped prepare students for higher education 
but also saved parents thousands of dollars since the district 
covered the cost of the courses and allowed children to see 
themselves, for the first time, as college students.
    One thing that Jerry Vaughn, the superintendent of this 
school district says, ``If you don't ever start college, you 
won't ever finish.'' I want to end by telling you about a 
conversation that I had with our track coach several years ago.
    He told me he was about to take an overnight trip to attend 
a track meet. He only took the top three athletes for each 
event. So he would have the athletes tryout the week prior to 
the track meet. There was this one kid that was trying out for 
every single event.
    The coach couldn't figure out why, because this kid very 
rarely showed this much initiative. So the coach said, ``Son, 
why are you doing this''? And this kid looked up at Coach 
Greenow, and he said, ``Coach, I have never been out of town 
before.'' The digital divide is real.
    I have kids in my community who have never been out of 
Bryan. This last year, some of the students at Stephen F. 
Austin Middle School participated in a unit on NASA. They might 
not be able to go to Houston, even though it is 90 miles away, 
but they can go on their laptop using the virtual trip.
    Thank you for allowing me to share you my testimony. I love 
sharing our story. It has given me a chance to voice our 
teachers and how they feel about how this has transformed their 
teaching and their learning in their schools. Thank you.
    [The statement of Ms. Bergland follows:]

   Prepared Statement of Jennifer Bergland, Bryan Independent School 
                                District

    Good Morning. Thank you to Chairman Miller and the Committee for 
inviting me to testify today. I am the Chief Technology Officer of 
Bryan Independent School District, in Bryan, Texas. We have 15,000 
students of which 71% receive free or reduced lunches and 61% of our 
students are considered at-risk. Technology has been a key factor in 
our efforts to ensure that all students are academically successful. We 
are reaching and engaging more students and seeing real gains in 
achievement. In 2008, the district received the TEAM award from CoSN 
(the Consortium for School Networking) that is given to a school 
district whose impact on technology's role in transforming learning has 
been significant. This award recognized the district's efforts in using 
technology to change the way our teachers teach and our students learn.
Technology Immersion Pilot (TIP) Model
    In 2004, Stephen F. Austin Middle (SFA) School, one of four middle 
schools in my district, issued laptops to all students and teachers 
attending the school. At the same time, the school received access to 
more robust digital content and tools, more professional development, 
and increased technical support. After five years of implementation the 
school has seen increased achievement scores, a reduction in discipline 
referrals, increased teacher retention, and an increase of technology 
proficiency for both students and teachers.
    SFA received funds from a grant funded through the NCLB Title II, 
D--Enhancing Education through Technology (EETT)--program to implement 
the Technology Immersion Pilot (TIP). TIP required each school to 
provide a laptop computer for every student and teacher, wireless 
access throughout the school, online curricular resources, on-going 
assessments, professional development and on-going support for 
teachers, and the technical support to maintain an immersed campus.
    The combination of these six components created a technology-rich 
learning environment that looks different than most typical classrooms. 
Collaboration, critical thinking skills, and student engagement are a 
part of teaching and learning in all subject areas. Tools like 
interactive white boards, digital content, on-line courseware, digital 
cameras, science probes, and laptops provide students with 
opportunities to collaborate and use relevant content that typically 
would not be available to the students in a traditionally-taught 
classroom. Leadership and professional development are critical to the 
vision and the sustainability of the type of change that occurs in a 
campus that immerses their teaching environment with technology tools 
and digital content. This is more than just putting technology in 
classrooms. The key is that teaching and learning happen in a different 
way. Education is transformed.
Transforming a School
    At SFA, academic achievement scores have increased steadily for all 
grades 6-8 in both math and reading over the past several years. The 
increase in scores matches the research conducted in relation to the 
TIP project. http://www.tcer.org/
    SFA has approximately 900 students in grades 6-8. They have a 
diverse student body with 75% of their students receiving free or 
reduced lunches. As part of this project they not only have laptops for 
all students, they also have extensive on-going professional 
development for their teachers, a designated Integration Specialist who 
models and mentors the teachers as they learn new skills and 
pedagogies. In addition, the students and teachers have online 
curricular resources, on-campus technical support, and a robust 
technical infrastructure that ensures each laptop can access the 
network and Internet from any place on campus.
    The access to these resources enables the students at SFA to be 
cognitively active and engaged in their learning. Students use online 
resources to perform digital science experiments, view virtual 
manipulations for abstract concepts in math and science, discuss topics 
in social studies using an online chat application, and publish their 
writing for a wide audience on blogs and wikis (web pages designed to 
enable anyone who access it to contribute or modify content). One 
student at SFA used her laptop to begin writing a sequel to the Harry 
Potter series from the point of view of her favorite character. This 
was not an assignment made by her teacher, but was her passion. The 
laptop made the writing much easier to accomplish. The technology also 
allows the students to collaborate not only in school, but also when 
they go home. Teachers at SFA began to assign more project-based 
learning opportunities that enable students to collaborate with each 
other while problem-solving real-world dilemmas. When students are 
cognitively engaged in their subject content, learning occurs. One tool 
that was used by Math and Science teachers are Gizmos by Explore 
Learning. Let me quickly demonstrate for you how these work.
    Having digital content, rather than traditional textbooks, enables 
the students to use all the Web tools available to personalize their 
learning. Students use these outside of school to customize their 
experience on the Internet. They create, collaborate, and publish in 
ways that were not possible ten years ago. SFA has been using similar 
tools within the classroom. Students are able to take a learning 
objective and use the vast resources on the Internet to go more in-
depth on topics of interest or find more information on a topic or 
skill in which they are struggling. The teacher no longer has to 
possess all the knowledge needed to instruct their students. They can 
truly be the facilitator of learning. In fact, students are able to 
find their own ``teacher'' using the Internet. These ``teachers'' might 
be a video demonstrating a physics problem, or step-by-step 
instructions on how to divide fractions. This customization of a 
student's learning has enabled the SFA students to create their own 
``teachable moments'' through their investigative inquiry during and 
outside of school. This leads the students to become more independent 
learners. One teacher has described her classroom this way, ``It's 
opened the environment * * * anybody can become the teacher at any 
point, and they don't hesitate.''
    When each student is issued a laptop, the learning is extended 
beyond the school day. Students at SFA mainly complete projects and 
homework assignments with their laptops at home, but the laptops are 
also used in other ways. One teacher set aside two nights a week to 
have a ``live homework chat session''. At first, the teacher was the 
one answering the student's questions. Soon, however, the teacher was 
able to back away and let the students answer each other's questions. 
The research conducted on the TIP project indicates that the students' 
use of laptops for home learning was the strongest predictor of both 
reading and mathematics achievement on the state achievement tests. The 
findings for home learning underscore the important role that 
individual student laptops play in promoting ubiquitous learning and 
equalizing the out-of-school learning opportunities for students in 
disadvantaged family and school situations. Individual student laptops, 
in contrast to laptops on carts or computers in libraries, labs, or 
classrooms, expand where and how student learning occurs. Access to 
electronic textbooks on laptops motivates many students to continue 
working on chapter assignments outside of school.
    The laptops also provide teachers with a variety of ways to assess 
their students' mastery of their subject content. Many of the online 
resources provide immediate feedback both for the teacher and the 
student. Some SFA teachers use Moodle, an online course management 
system, which allows teachers to embed assessments throughout the 
online assignment. The teachers can also set the system to allow 
students to re-take the test until the student masters the material. 
Benchmark assessments that are taken online allow a teacher to quickly 
determine what objectives each student needs to be re-taught or 
reinforced. The use of the student laptops has enabled teachers to 
diagnose and suggest remediation for students during the learning 
process, rather than after the process is complete.
Professional Development in Bryan: Improving Teacher Effectiveness
    Ongoing, job embedded professional development is essential when 
changing teaching practices. Teachers at SFA were given hands-on 
training on how to use the technical tools and online resources. This 
is a first step in helping them to be comfortable with the tools that 
the students will have. It is important that schools not stop at this 
step. In order to use the power of the technology, the teachers have to 
learn how to leverage these tools to educate differently. If teachers 
teach the same way using technology, as they did without technology, 
then the investment is wasted. Helping teachers see this takes time. 
Professional development needs to be based on teachers' evolving needs, 
and progress from the first-year focus on proficiency with technology 
tools and online resources to an increased emphasis on technology-
related lessons, subject-specific lesson development, and the use of 
more advanced technology applications for projects.
    We used several professional development models to help teachers 
acquire these skills. We created a cadre of mentor teachers, the 
iSupport team, who would help teachers learn how to teach using the 
laptops and the digital resources. We also found that having a person 
on campus that is solely dedicated to helping teachers change their 
teaching practices was critical to the teachers' success. The 
Integration Specialist would plan with teams of teachers on how to take 
a traditional lesson and embed technology in that lesson that would 
engage the students in the learning process and increase their ability 
to understand and apply their learning. This individual would also 
model-teach, work with students, and work with teachers on classroom 
management.
    Teachers are not alone in the need for professional development and 
coaching. A change of this magnitude requires that all key stakeholders 
understand the reasons why the classroom needs to change, the methods 
that will be used to obtain the transformation, and what their role is 
in equipping the teachers and students with the necessary support to 
make the change happen. In the hurry to begin the implementation, our 
district started with the teachers. We found during the first year we 
only had vocal support for the project from the executive leadership 
and curriculum coordinators. In the second year we began providing the 
necessary professional development for the district leadership and 
their support for the project increased. We provided professional 
development for all campus administrators, district curriculum 
coordinators, district executive leadership, and technology personnel. 
As a result, the administrators began to communicate to teachers how 
the project benefits students that in turn raised the awareness of why 
immersion was important. Campus administrators took an active role in 
discussing technology issues with students, allocated time for teachers 
to plan technology-integrated lessons, and monitored the use of 
technology by visiting classrooms. The need to include all individuals 
that affect the classroom teacher in the professional development plan 
should not be underestimated.
TIP Results
    Other Texas districts have experienced similar results as Bryan. As 
part of TIP, the Texas Education Agency (TEA) participated in a 
scientific investigation of the effectiveness of technology immersion 
in increasing middle school students' achievement in core academic 
subjects as measured by the Texas Assessment of Knowledge and Skills 
(TAKS). This research study was funded by a US Department of Education 
evaluation grant as part of the NCLB Title IID Program. The evaluation 
examined the relationships that exist among technology immersion, 
mediating variables (school, teacher, and student), and student 
achievement. Applicants were high-need due to children from families 
with incomes below the poverty line, schools identified for 
improvement, or schools with substantial need for technology. 
Technology immersion schools were matched by researchers with control 
schools on key characteristics, including eligibility for Title II 
funds, size, regional location, demographics, and student achievement.
    The study included grades 6-8 middle schools drawn from rural, 
suburban, and urban locations in Texas. The study focused on two groups 
of student with a total of more than 10,000 students in control and 
experimental schools. Nearly three-quarters of students are 
economically disadvantaged (about 75%) and represent minority groups 
(approximately 70% Hispanic and 7% African American).
    First and second year reports revealed positive effects of 
technology immersion on schools, teachers, and students. Outcomes 
across two evaluation years and two student cohorts show that immersing 
a middle school in technology produces schools with stronger 
administrative leadership for technology, greater teacher collaboration 
and collective support for technology innovation, and stronger parent 
and community support for technology. Additionally, teachers in 
immersion schools are more technically proficient and use technology 
more often for their own professional productivity. Students use 
technology more often in core-subject classrooms, and teachers adopt 
more learner-centered ideologies. Students in immersion schools are 
more technically proficient, use technology more often for learning, 
interact more often with their peers in small-group activities, and 
have fewer disciplinary problems than control-group students. 
Additionally, there are other outcomes for immersion students that may 
contribute to their long-term success. Certainly, technology immersion 
has narrowed the technology equity gap for economically disadvantaged 
students. Many students who previously had no technology in their homes 
are becoming computer literate through their experiences with laptops.
    Across four years, students in Technology Immersion schools 
consistently had fewer disciplinary actions than control-group 
students. In the fourth year, Cohorts 2 and 3 immersion students had an 
average of 0.54 and 0.45 disciplinary actions per student, 
respectively, compared to 0.76 and 0.71 per-student averages for 
control students. Reducing disciplinary actions may have very important 
benefits due to more time in classrooms and decreased time and effort 
spent by middle school teachers and administrative staff on 
disciplinary problems of students removed from classrooms.
Another District: Academic Results and College
    Rural Floydada school district began Texas TIP implementation in 
their school district in 2005 and then later expanded from the middle 
school to the high school. Sixth grade standardized math scores 
increased by 29 points, and 10th grade standardized math scores 
increased by 36 points. Also impressive is that Floydada High School 
students completed 206 college level courses in 2008 for a total of 619 
hours. Half of the senior class completed at least 1 college course 
prior to graduation. These courses not only helped prepare students for 
higher education, but also saved parents thousands of dollars since the 
district covered the cost of the courses and allowed children to see 
themselves as college students. Because of districts success like 
Floydada, my district has created a high school in which the students 
will receive enough credits to enter college as a junior when they 
graduate from high school. Many students at this high school do not 
have the technology needed to successfully complete a college course. 
Therefore, we are hoping to provide each of these students with a 
laptop next year in order to meet this need. Technology is providing 
increased access to education and higher education for students most in 
need.
Conclusion
    One administrative staff member described the positive effects the 
technology immersion project has had on the students at SFA:

          ``It's one of the most rewarding projects that we have 
        undertaken. It's one of the few things that we do in education 
        that we really do for the kids. We say that all the time, that 
        we are going to be child centered. This one really is student 
        centered because there is no other reason you would do it. They 
        are the ones who benefit * * * It's hard for the adults * * * 
        This is for them * * * It's going to benefit all of us as they 
        become better adults.''

    Thank you for the opportunity to testify. You have provided me an 
opportunity to share with you what we have learned in Bryan, Texas; 
that classrooms are transformed when students are engaged in a 
meaningful learning environment, their learning is personalized to 
their needs and interests, and their school day is extended by 
providing all students with access to resources to support their 
scholastic objectives and interests.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Real?

   STATEMENT OF ABEL REAL, STUDENT, EAST CAROLINA UNIVERSITY

    Mr. Real. Good morning, Chairman Miller, and congressional 
committee members. I thank everyone for the opportunity to 
share my story today. I hope all of you all are doing well and, 
yes, I did say all ``y'all.'' I am from the South, born and 
raised, and I am very proud of my southern roots.
    My rural home of Snow Hill in Greene County, North Carolina 
is a small community with high poverty rates and is not well 
known. But just as this room is full of opportunity, 
intelligence, and determination to succeed with change, so is 
Greene County. The county's population is about 20,000 with 
approximately 3,200 students in our school system.
    Seventy-three percent of these students receive free or 
reduced lunches. Thankfully, Greene County has changed their 
schools through a one-to-one laptop program and is now home to 
what, in my case, was a portal to a new life. Unfortunately, 
narcotics began to tear my family apart when I was 9 years old.
    By the time I was 10 years old, my father had been 
imprisoned at least three times, fled from the law, and I have 
yet to hear from him. My mother was left with four young kids 
to look after, and with no education, she was forced to work in 
the fields from sunrise to sunset.
    Her farm-laboring job did not adequately provide for us, 
and unfortunately, she eventually turned to drug trafficking as 
well. By the time I was 11 years old, my two older brothers 
dropped out of high school, and at least they began to help 
support the family, and my mom could finally make the 
commitment to stop dealing drugs.
    A month after my 13th birthday, I received a blow that 
would change my life forever. My mother was incarcerated for 
drug trafficking more than a year after the last time she ever 
had anything to do with them. Her past had finally caught up 
with her, and my perfect life crumpled beneath my eyes from one 
day to the next.
    The events to follow were as expected of a 13-year-old who 
had no adult supervision to stray him from wrongdoing. By 
sophomore year in high school, I had 46 absences, rapidly 
dropping grades, no parents, a torn family, and plans to soon 
drop out of school.
    By the age of 16 years, I was bailing my brother out of a 
detention center for traffic violations. During my junior year, 
I met my healthcare instructor and mentor that helped me change 
my ways. Ms. Lisa Wilson inspired me and shared with me how the 
use of technology tools could open doors.
    Technology helped to spark an interest in school and 
provided many of the resources that I lacked at home. At the 
time, I didn't really understand the school's new educational 
model or the hundreds of hours of training that my teachers had 
attended.
    I only knew that I had a laptop, and that I used technology 
in every classroom, which also provided access to my teachers 
and classmates 24 hours a day, 7 days a week.
    Soon it didn't matter that my home life was a mess or that 
Greene County was so isolated. The integration of technology 
opened the world to me. By my senior year, I placed first in a 
regional Health Care Club speech competition and top ten in the 
state.
    I was also varsity soccer team captain, homecoming king, 
president of various clubs on campus, and had perfect 
attendance, plus I worked two to three jobs. At home, there was 
no inspiration, and I truly dreaded the bell at the end of the 
school day.
    At least I knew that when I left campus, I would be able to 
instant message and e-mail my teachers and classmates with 
questions. Since Greene County schools provided change with the 
one-to-one program, school life is very different than 
traditional high school that my brothers dropped out of.
    Students work in groups; they are challenged by projects, 
the best part is everyone participates. In addition to the 
laptops, students use digital cameras, video cameras, and 
interactive whiteboards to prepare for college and 21st Century 
careers.
    For example, in my physical science class, I demonstrated 
elevated distance by providing visual image slides for my 
classmates. In chemistry, I was able to manipulate elements 
from the periodic table on a interactive whiteboard.
    Other examples of technology used in Greene Central High 
School includes designing Web pages, filming and editing 
movies, and creating thinking maps. Our teachers work with 
facilitators to help make all this happen.
    You see, technology is not a luxury in today's society; it 
is a necessity.
    Most importantly, the student body is now at optimal 
performance. Today, we aim beyond a high school diploma and at 
very minimum to a bachelor's degree. Through the use of 
technology, our teachers are preparing us with skills for our 
journey to successful careers.
    Before our laptop program 7 years ago, the average college 
going rate in Greene County was 26 percent. By the time I 
graduated in 2008, our college going rate increased to 94 
percent, our school record.
    In the past, our rural county was far below average at a 
national average. Now we are above average by 34 percent. In 
addition to increased college going rates, we have increased 
access to honors and AP classes and our teen pregnancy rate has 
dropped to number 18 from number two.
    Our advancement is all thanks to the technology and great 
teachers who integrate tools into their lessons. Thankfully, we 
are not alone, and there are other students in North Carolina 
and across the county that are also benefitting from similar 
programs.
    I have just finished my freshman year at East Carolina 
University with a major in pediatric nursing. I also received a 
National Nurse Scholars scholarship. I am currently employed as 
a certified nursing assistant. I actually received my nurse's 
assistant credentials as part of my high school curriculum.
    Although this may seem like a most ordinary story, 
something not so ordinary happened along the way, technology. 
Technology tools helped me to create, learn, explain, document, 
and analyze the different aspects of my life. My grades could 
not have been successful without the constant e-mails.
    I could not have shined through without the use of power 
points and movie presentations. My application to East Carolina 
University, my SAT registration, and most recently, my Nurse 
Scholars Program application were all completed online.
    Without technology, there is no way I would be here 
testifying today. Honestly, I would probably be another 
dropout. There are many students across the country just like 
me that only need a chance or an opportunity to change their 
future.
    Even diamonds have to be uncovered and discovered to show 
their brilliance and beauty. Young people across America are 
these diamonds. Technology is the perfect tool for these young 
diamonds to shine across our beautiful home we call America. 
Thank you.
    [The statement of Mr. Real follows:]

  Prepared Statement of Abel Alejandro Real, Sophomore, East Carolina 
                               University

    Good morning Chairman Miller and Congressional Committee members, I 
would like to thank everyone for the opportunity to share my story 
today. I hope all of y'all are doing well, and yes I did say ``all 
y'all.'' I am from the south, born and raised and I am very proud of my 
southern roots. My rural home of Snow Hill in Greene County, North 
Carolina is a small community, with high poverty rates and is not well 
known; but just as this room is full of opportunity, intelligence, and 
determination to succeed with change, so is Greene County. The county's 
population is about 20,000 and there are about 3,200 students in our 
school system. 73% of these students receive free or reduced lunches. 
Thankfully, Greene County has systematically changed their schools 
through a one to one laptop program and is now home to what, in my 
case, was a portal to a new life.
    Please know that I created the movie that is playing with photos 
and images to help you visualize while I am sharing my story.
    Today, I will share who I am, where I came from and how my public 
education has impacted my life. I am not here to tell you how many 
gigabytes are in a laptop nor how fast I can download something 
directly from the Internet, I'll leave this to the professionals. I am 
only here to tell each of you that nothing is impossible; it is only a 
question of giving someone a chance or an opportunity.
    Unfortunately, narcotics began to tear my family apart when I was 9 
years old. Since then drugs have yet to cease in the deterioration of 
my family. By the time I was 10, my father had been imprisoned at least 
3 times, fled from the law and I haven't heard from him since. My 
mother was left with 4 young kids to look after and with no education, 
she was forced to work in the fields from sunrise to sunset. Her farm-
laboring job did not adequately provide for us and unfortunately, she 
eventually turned to drug trafficking to make ends meet. By the time I 
was 11, my two older brothers dropped out of high school. My brothers 
didn't believe a high school diploma was necessary to become 
successful. Although my mother heavily opposed their decisions, she did 
not know enough about the school system to motivate them to continue 
their education. The only positive thing that came out of my brothers 
dropping out of school was that they began to help support the family 
and my mom could finally make the commitment to change and stopped 
dealing drugs.
    A month after my thirteen birthday, in October of 2004, I received 
a blow that would change my life forever. My mother was incarcerated on 
charges of trafficking cocaine to an undercover narcotics officer. This 
was more than a year after the last time she ever had anything to do 
with drugs. Her past had finally caught up with her. My perfect life 
crumpled beneath my eyes from one day to the next.
    The events to follow were as expected of a 13 year old who had no 
adult supervision to keep him from straying into wrongdoing. My 
brother, although 3 years older than me, was left to care for me and 
was, at the time, more immature than I was. By sophomore year in high 
school, I had 46 absences, rapidly dropping grades, no parents, a torn 
family, and plans to soon drop out of school. By the age of 16, I was 
bailing my brother out of a detention center for traffic violations.
    During my junior year, I met my healthcare instructor and mentor 
that helped me change my ways. Mrs. Lisa Wilson inspired me and shared 
with me how the use of technology tools could open doors. Technology 
helped to spark an interest in school and provided many of the 
resources that I lacked at home.
    At the time, I didn't really understand the school's new 
educational model, or the hundreds of hours of on going training that 
my teachers had participated in to systematically change our school. I 
only knew that I had a laptop and I used technology in every classroom 
and through technology I had access to my teachers and classmates 24 
hours a day-7 days a week. Soon it didn't matter that my home life was 
a mess or that Greene County was so isolated, the integration of 
technology opened the world to me.
    By my senior year I placed first in a regional Health Care Club 
speech competition and in the top ten in the state competition. I was 
also varsity soccer team captain, Homecoming King, president of various 
clubs on campus, and had perfect attendance. Plus, I worked 2 to 3 jobs 
throughout the school year. At home, there was no inspiration and I 
truly dreaded the bell at the end of the school day. At least I knew 
when I left campus; I would be able to instant message my teachers and 
classmates with questions and could collaborate on group projects via 
emails and IM.
    Since Greene County schools provided change with the one to one 
program, school life is very different than the traditional high school 
my brothers dropped out of. Students work collaboratively in groups, 
they are challenged by projects and thoughtful questions and the best 
part is everyone participates and pays attention. In addition to the 
laptops, students use digital cameras, video cameras, and interactive 
white boards. Students are being prepared for college and 21st Century 
careers. For example, in my physical science class I demonstrated 
elevated distance by providing visual image slides for my classmates. 
In chemistry, I was able to manipulate elements from the periodic table 
on the interactive whiteboard to show compound structure. Other 
examples of technology use in Greene Central High School, include 
designing web pages, filming and editing movies and creating thinking 
maps to name a few. Our teachers work extensively with a technology 
facilitator and a literacy facilitator to collaborate with one another 
to help make all of this happen. You see technology is not a luxury in 
today's society; it is a necessity.
    Most importantly, the student body is now at optimal performance 
and growth in learning. Now, more than ever kids are graduating and are 
running past the limits of the older generations like my brothers and 
sister. Today, we aim beyond a high school diploma and at a very 
minimum to a bachelor's degree. Many of us are setting our goals to 
obtain masters and even doctoral degrees. Our teachers in our rural 
home are preparing us through the use of technology to acquire skills 
that will not only give us a direction to head in but a jump start on 
our journey to successful careers.
    Before technology entered our school system the average college 
going rate was 26%. By the time I graduated in 2008 our college going 
rate increased to 94%, our school record. This was a significant change 
of 68%. The average college going rate for our nation today is at about 
60%. In the past, our rural county was far below average at a national 
level, now we are above average by 34%. Now, we are ahead of the game 
and our advancement is all thanks to the technology tools and great 
teachers who integrate the tools into their lessons. In addition to 
increased college going rates, I'm happy to share that this technology 
integration model has been instrumental in other changes within Greene 
Central High School:
    <bullet> Increase availability for honors and AP classes through NC 
Virtual Public School. Including 5 Advanced Placement classes and 11 
honors classes.
    <bullet> Access to 5 college classes through University of North 
Carolina Greensboro iSchool.
    <bullet> 100% of our teachers are Highly Qualified Teachers.
    <bullet> 2005-06 and 2006-07 Greene Central met Adequate Yearly 
Progress
    <bullet> Teen Pregnancy Rates has dropped from #2 in the state to 
#18
    <bullet> Expected or High Growth on North Carolina Accountability 
System (NC ABC) Testing each year
    <bullet> Dropout Rate Decreases For example in 2007-08 there were 
63 drop outs and to date in 2008-09 only 53.
    Not only has our school changed. This initiative has brought great 
changes to our entire community including:
    <bullet> Increase High Speed Internet Access from 15% to 92% 
throughout our county. The Greene County Board of Commissioners 
supported the school system's need for community Internet access.
    <bullet> New Business
    <bullet> New Industrial Park
    <bullet> New Recreation Complex
    <bullet> New Golf Resort Community
    And most importantly, community PRIDE!
    Thankfully, there are other students across the country and even in 
North Carolina that are also benefiting from having technology in their 
schools. Other schools in North Carolina have the IMPACT program that 
is another technology integration program with a focus on teachers, 
students and planning. The IMPACT program was recently included in a 
scientific evaluation study funded by the US Department of Education 
and showed a positive impact on student achievement. In math, the odds 
that IMPACT students would go from non-passing to passing status over 
the three years was 42% higher than that for comparison students. In 
reading, the odds of IMPACT students increasing achievement level from 
the second to the fourth years were 3 times that of comparison 
students. This study shows that students throughout North Carolina are 
having success because of their use of technology in their schools. The 
study also showed that teachers participating in the program were 65% 
more likely to be retained than teachers in comparison schools. I know 
at Greene Central our teachers were really dedicated to our program and 
having them stay at our school made a big difference. Below are 
additional statistics about the North Carolina IMPACT program.
    <bullet> Math: When looking at pass/fail rates for the End of Grade 
(EOG) math tests, in the baseline year IMPACT students were 
significantly less likely to pass the math tests than comparison 
students. By the fourth year, IMPACT students were more likely to pass 
the test.
    <bullet> Reading: When looking at change in passing status, the 
odds that IMPACT students would increase from failing to passing over 
the four years were 55% higher than the odds for comparison students. 
When looking at Year two to year four with the larger sample, the odds 
were 43% higher for IMPACT students.
    <bullet> Teachers: IMPACT teachers consistently saw IT as more 
useful, and had more positive attitudes toward the usefulness of email, 
the World Wide Web, multimedia in the classroom, and instructional 
technology for teachers than the comparison teachers.\1\
---------------------------------------------------------------------------
    \1\ North Carolina IMPACT Model http://www.ncwiseowl.org/IMPACT/
---------------------------------------------------------------------------
    I have just finished my freshman year at East Carolina University 
in Greenville, North Carolina with a major in pediatric nursing and I 
am the first person in my immediate family to attend a university. I 
received a national Nurse Scholars scholarship that entitles me to 
$20,000 for my post secondary educational costs. I am currently 
employed in 2 upscale assisted living facilities as a Certified Nursing 
Assistant. I'm so thankful to have received my nurse's assistant 
credentials as part of my high school curriculum so that I can have 
these jobs today.
    I am not here to tell you a fairy tale story of how I came from the 
bottom and now I am at the top. In fact, I am nowhere near the top. I 
am only climbing. I am climbing the same mountain almost every student 
in Greene County is climbing, the mountain of success. My story is a 
series of unfortunate events and my fairy tale is far from coming true. 
Although this may seem like a most ordinary story, something not so 
ordinary happened along the way that changed my life drastically to 
give me the chance to stand before you today-technology. Technology 
tools helped me to create, learn, explain, document, and analyze. My 
grades could not have been successful without the constant e-mails that 
kept me in contact with my teachers and peers. I could not have shined 
through without the use of power points and movies. My application to 
East Carolina University, SAT registration, and most recently my Nurse 
Scholars Program application were all completed online. Without 
technology there is no way I could be testifying today. Honestly, I 
would probably be just another dropout.
    There are many students across the country just like me that only 
need a chance or an opportunity to change their future. Life is all 
about chances and opportunities and how you take advantage of them. 
Even diamonds have to be uncovered and discovered to show their 
brilliance and beauty. Young people across America are these diamonds. 
Technology is the perfect tool for these young diamonds to shine across 
our beautiful home we call America. It is our future for learning!
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Dr. Hartschuh?

  STATEMENT OF WAYNE HARTSCHUH, EXECUTIVE DIRECTOR, DELAWARE 
               CENTER FOR EDUCATIONAL TECHNOLOGY

    Mr. Hartschuh. Good morning. Thank you, Chairman Miller, 
Representative McKeon, and the committee for inviting me to 
testify today.
    I would like to especially thank Delaware Representative 
Castle for his longtime support of education and educational 
technology.
    I am Wayne Hartschuh, executive director of the Delaware 
Center for Educational Technology, part of the Delaware 
Department of Education. When I consider how technology is 
transforming our public schools, I realize that in our digital 
world, no organization including education can achieve results 
without incorporating technology into its everyday practices.
    To truly realize the effects that technology can have on 
education, we need to consider those everyday practices and 
determine how technology can support them. I will discuss three 
of those practices and how we are addressing technology 
implementation in Delaware.
    The first and most important is curriculum and instruction 
through our eMINTS program. The second is professional 
development through eLearning Delaware. And the third is 
student assessment data through our development of the Delaware 
Comprehensive Assessment System.
    The Maximizing the Impact report states, ``It is time to 
focus on what students need to learn and on how to create a 
21st century education system that delivers results.''
    Delaware has done a good job of the ``what'' by developing 
content standards and aligning curriculum to meet those 
standards. To address the ``how,'' we have committed No Child 
Left Behind Title II, Part D E2T2 funds to the implementation 
of the eMINTS program based on the long-term results from 
Missouri and the replication from other states.
    eMINTS provides a model that is innovative and provides 
exemplary approaches that combine instructional strategies, 
technology, and professional development.
    With proven results of increase in student achievement, the 
model drives the transformation of the learning environment by 
providing a high-tech classroom that emphasizes inquiry based 
teaching, cooperative learning, and the development of higher-
order thinking skills.
    e-Learning Delaware is Delaware's implementation of the e-
Learning for Educator's Initiative, a project funded through 
the federal Ready to Teach Grant and a collaboration between 10 
state education agencies and associated public broadcast 
stations.
    e-Learning Delaware uses a Web-based model to provide 
effective professional development opportunities that lead to 
gains in teachers' content knowledge, improvements in their 
teaching practices, and an increase in the achievement levels 
of their students.
    Since the spring of 2006, we have built our statewide 
capacity to deliver online professional development by training 
online course facilitators and developers and implemented a 
course management system to deliver the courses.
    We have delivered over 130 online courses to over 2,000 
Delaware educators and developed online courses related to 
Delaware recommended curriculum and required science training 
such as an earth history course. The earth history professional 
development course has been a notable accomplishment.
    WHYY, Delaware's PBS station affiliate, in collaboration 
with DOE Science personnel produce supplementary video segments 
that are an integral part of the online course content.
    We are following this same model of producing and 
incorporating video segments into the Delaware watersheds 
course and the weather course that are currently under 
development.
    We are extremely pleased that the federal grant has given 
us the opportunity to collaborate with our local PBS station in 
the development of high-quality video to support online 
professional development.
    The state of Delaware is redesigning its student assessment 
program. The current Delaware student testing program in place 
since 1998 will be replaced by the Delaware Comprehensive 
Assessment System in the 2010/2011 school year.
    Why am I talking about assessment when we are here to talk 
about how technology is transforming public schools? The 
Delaware Comprehensive Assessment System is an entirely online 
assessment.
    Delaware is moving to an online assessment because we want 
to provide immediate results, provide diagnostic reports to 
teachers within 2 days, provide students with multiple 
opportunities to pass, and be able to assess student 
achievement from an entire school year. This can only be done 
with online assessment.
    Another driving factor is the desire to increase student 
access to technology. With the implementation comes a 4-year 
replacement cycle for computers and the computers we use for 
instruction whenever testing is not being done.
    Greater access to technology and integration into 
curriculum are critical if we are to prepare students for the 
workplace of tomorrow. The good news is that we have made 
positive strides forward in Delaware by using technology to 
transform our public schools.
    This is seen at the curriculum and instruction level, the 
professional development level, and the statewide assessment 
level. eMINTS and e-Learning Delaware are just two of many 
examples of how technology is transforming education in 
Delaware public schools.
    Unfortunately, is the case in most states, we still have 
pockets of excellence rather than systemic transformation. With 
our transition to the Delaware comprehensive assessment system, 
we are moving towards systemic transformation.
    The bold move of taking all statewide assessment online 
will also drive an increased use of technology and curriculum 
instruction as well as professional development. In conclusion, 
we hope these efforts to use technology to transform our public 
schools will be seen as a catalyst of change, even an 
accelerator of change.
    Thank you for your time and your support of technology and 
education for our nation's children.
    [The statement of Mr. Hartschuh follows:]

   Prepared Statement of Wayne Hartschuh, Ph.D., Executive Director, 
  Delaware Center for Educational Technology, Delaware Department of 
                               Education

    Good Morning. Thank you to Chairman Miller, Representative McKeon, 
and the Committee for inviting me to testify today. I would like to 
especially thank Delaware Representative Castle for his longtime 
support of education and educational technology. I am Wayne Hartschuh, 
Executive Director of the Delaware Center for Educational Technology, 
Delaware Department of Education.
    When I consider how technology is transforming our public schools, 
I realize that in our digital world, no company or organization, 
including education, can achieve results without incorporating 
technology into its everyday practices. To truly realize the effects 
that technology can have on education, we need to consider those 
``everyday practices'' and determine how technology can support every 
aspect of those practices. I will emphasize three of the ``everyday 
practices'' and how we are addressing the technology issue in Delaware 
during my short time with you this morning: the first and most 
important is curriculum and instruction through our eMINTS program; the 
second is professional development through our eLearning Delaware 
program; and the third is student assessment data through our 
development of the Delaware Comprehensive Assessment System.
Curriculum and Instruction: eMINTS
    The 2007 report, Maximizing the Impact: the Pivotal Role of 
Technology in a 21st Century Education System states, ``It's time to 
focus on what students need to learn--and on how to create a 21st 
century education system that delivers results.'' Delaware has done a 
good job of the `what' by developing content standards and aligning 
curriculum to meet those standards. To address the `how,' we have 
committed NCLB Title II, Part D funds to the implementation of the 
eMINTS program based on the long-term results from Missouri and the 
replication results from other states including Utah and Maine. The 
2007 Council of Chief State School Officers (CCSSO) report, Successful 
Practices Series: Report 2: Changing the Face of Education: Missouri 
Leads the Way was a major selling point.
    eMINTS (enhancing Missouri's Instructional Networked Teaching 
Strategies) provides a model that is innovative and provides exemplary 
approaches that combine instructional strategies, technology, and 
professional development. With proven results of increasing student 
achievement, the model drives a transformation of the learning 
environment by providing a high-tech classroom that emphasizes inquiry-
based teaching, cooperative learning, and the development of higher-
order thinking skills. The keys to success in our eMINTS classrooms 
have been increased student engagement, improved interactivity, and 
high-quality professional development. In other words, the technology 
in the high-tech classroom has driven a positive change in how teachers 
teach and how students learn.
    eMINTS has provided a refreshing approach to teaching and learning 
in Delaware with high-quality professional development and high-tech 
classrooms. The eMINTS instructional model provides a research-based 
approach to organizing instruction and can be implemented in any 
subject area at any level. The eMINTS instructional model enables 
educators to:
    <bullet> create classrooms where all students are motivated to 
succeed socially and academically,
    <bullet> fully incorporate technology investments into teaching and 
learning,
    <bullet> complement existing preK-16 curriculum with critical-
thinking requirements found in national, state and local curriculum 
standards, and
    <bullet> build enthusiasm and creativity into daily teaching.
    Although we are too early in the process to have Delaware data, the 
data from implementations in other states is impressive. In Utah, 
Missouri, and Maine, the eMINTS program provides schools and teachers 
with educational technology tools, curriculum, and over 200 hours of 
professional development to change how teachers teach and students 
learn. Utilizing 21st Century skills, relevant content, and 
collaboration are all key to the instructional strategies used in 
eMINTS classrooms. eMINTS changes how teachers teach and how students 
learn. Students in eMINTS classrooms no longer have to ``power down,'' 
disconnect or disengage from the excitement and motivation the 
technology brings to their world.
    Teachers in eMINTS classrooms at all grade levels (3-12) report 
significant increases in student attendance and significant decreases 
in student behavior disruptions. Students in eMINTS classrooms are 
fully engaged in authentic projects that utilize technology and provide 
opportunities for students to hone the skills they will need to compete 
in the 21st Century, Missouri has evaluated this program for 8 years, 
and other states are conducting evaluations, as well. The following 
link provides a strong overview of the program: http://www.emints.org/ 
and findings are found at http://www.emints.org/evaluation/reports/. 
Findings include:
    <bullet> In Utah, classrooms in the same school (one with eMINTS 
and one without), the student achievement of students in the eMINTS 
classroom was repeatedly over 10% higher than the control classroom. In 
Title I buildings participating in the eMINTS-4-Utah initiative, a 
greater percentage of 4th--6th grade students enrolled in eMINTS 
classrooms scored at proficient levels on the UPASS CRT tests for 
language arts, mathematics, and science than did 4th-6th grade students 
in non-eMINTS classrooms.
    <bullet> After 6 years of data in Grade 4 Mathematics, eMINTS 
students in subgroups (special education, low income, and Title I) have 
reduced the gap in test scores between their performance and their 
peers by up to \1/2\ of the difference attributable to subgroup 
classification.
    <bullet> In another district that had not met AYP goals, teachers 
began implementing the eMINTS program. After using the eMINTS approach 
with extensive professional development, the 3rd grade math scores 
increased by more than the 15% goal and made AYP in every subgroup.
    Analysis of Missouri Assessment Program (MAP) scores reported by 
outside program evaluators from 2001--2006 showed consistently positive 
results for students in eMINTS classrooms when compared to their peers 
not enrolled in eMINTS classrooms. The analyses reported ``statistical 
significance'' for various findings. Statistical significance refers to 
findings that cannot be easily explained as being caused by variables 
other than the program or intervention (in this case, eMINTS) being 
studied.
    In analyses of the differences between the performance of eMINTS 
students compared to non-eMINTS students, the statistical significance 
varied by year. However, the overall trends established higher 
achievement on the MAP tests for eMINTS students in all subject areas 
(communication arts, mathematics, science and social studies) when 
compared to non-eMINTS students. Please note: each year represented a 
different group of students in different schools with different 
teachers.
    Over the course of the analyses there have been a number of 
programmatic changes to eMINTS and how districts were selected to 
participate in eMINTS. Over the past six years, eMINTS grant funds have 
changed from being available to any interested district in Missouri to 
being available only to districts meeting federal poverty eligibility 
guidelines. The MAP has also undergone changes in scoring procedures 
and how student scores are reported. Comparisons continue to 
demonstrate eMINTS students consistently achieved higher MAP scores 
than their non-eMINTS peers.
    Statistically significant differences (eMINTS students achieving 
higher scores than their non-eMINTS peers) occurred in:
    <bullet> 3rd Grade Communication Arts (2001, 2003, 2004, 2005)
    <bullet> 3rd Grade Science (2001, 2003)*
    <bullet> 4th Grade Mathematics (2001, 2002, 2003, 2005, 2006)
    <bullet> 4th Grade Social Studies (2001, 2002, 2003)*
---------------------------------------------------------------------------
    *Science and Social Studies not analyzed after 2003 when many 
districts no longer participated in MAP tests in those subjects.
---------------------------------------------------------------------------
    Beginning in 2003, examination of eMINTS v non-eMINTS student MAP 
scores included analysis of difference for students in particular sub-
groups such as students in special education, students receiving Free 
and Reduced Lunch, and students in ethnic groups that have historically 
experienced gaps in achievement when compared with other students. 
Statistically significant differences in MAP scores for eMINTS students 
when compared to their non-eMINTS peers in the following subgroups were 
noted:
    <bullet> Title I students on 4th Grade Mathematics (2001, 2002)
    <bullet> Special education students on 4th Grade Mathematics (2002, 
2003)
    <bullet> Students receiving Free and Reduced Lunch on 3rd Grade 
Communication Arts (2003, 2005)
    <bullet> Students receiving Free and Reduced Lunch on 4th Grade 
Mathematics (2003, 2005)
    <bullet> African America students on 4th Grade Mathematics (2004)
    We are extremely pleased with our eMINTS implementations so far and 
as we enter our second year, we look forward to expanding the program 
and seeing similar results showing improved student achievement and 
success for our Delaware students.
    One of the key ingredients to success in the eMINTS project is 
professional development. Professional development, especially with 
regard to technology, is key in most all curriculum and instruction 
programs. Delaware has been delivering online professional development 
for subject-matter content, as well as technology integration for over 
five years.
Professional Development: eLearning Delaware
    eLearning Delaware is Delaware's implementation of the e-Learning 
for Educators Initiative, a project funded through a federal Ready to 
Teach grant and a multi-state collaboration between ten state education 
agencies and associated public broadcast stations. eLearning Delaware 
partners are the Delaware Center for Educational Technology, the 
Delaware Department of Education, and WHYY. The Ready to Teach grant is 
administered through Alabama Public Television and the national 
partners include the Education Development Center (EDC) and Boston 
College.
    eLearning Delaware uses a Web-based model to provide effective 
professional development opportunities that lead to gains in teachers' 
content knowledge, improvements in their teaching practices, and an 
increase in the achievement levels of their students.
    Since the spring of 2006, we have built our statewide capacity to 
deliver online professional development and technical assistance to our 
districts and schools. eLearning Delaware has trained over 50 online 
course facilitators, trained over 35 online course developers, and 
implemented a course management system, Blackboard, to deliver the 
online courses. In turn, we have delivered over 130 online professional 
development courses to over 2,000 Delaware educators, and developed 10 
online courses, most notably the six courses related to the Delaware 
Recommended Curriculum and the Earth History course that is part of the 
required training for sixth grade science teachers. We currently have 
12 more courses in development with two being science courses: Delaware 
Watersheds and Weather.
    The Earth History professional development course has been a 
notable accomplishment and the Delaware Watersheds and Weather course 
will follow the same model. WHYY, Delaware's PBS station affiliate, in 
collaboration with Delaware Department of Education science personnel, 
produced supplementary video segments for the Earth History course. An 
eLearning Delaware course developer worked with the DOE Science 
personnel to integrate this high-quality, professionally produced video 
into the course content and develop the online course. The video 
produced by WHYY is an integral part of the course. The professional 
development course for the teacher is designed to run concurrently with 
the delivery of the Earth History unit. The pilot run of the course 
began at the end of March to coincide with the last marking period of 
the school year. The course ran for nine weeks and concluded at the end 
of the school year.
    WHYY and the Delaware DOE Science personnel will be filming the 
material for the Delaware Watersheds course and the Weather course this 
summer with the courses scheduled for completion in time to deliver in 
the second semester of next school year. We are extremely pleased that 
the Federal grant has given us the opportunity to collaborate with our 
local PBS station in the development of high-quality video to support 
online professional development.
    Returning to the item mentioned previously about delivering over 
130 online courses. More specifically, we have delivered over 130 
sections of online courses. The courses that have been delivered are 
listed below. Most courses were developed by Education Development 
Center and those marked with an * were developed by Delaware educators.
    <bullet> Aligning Curriculum to ELA Standards*
    <bullet> Aligning Curriculum to Math Standards*
    <bullet> Aligning Curriculum to Science Standards*
    <bullet> Aligning Curriculum to Social Studies Standards*
    <bullet> Approaches and Tools for Developing Web-Enhanced Lessons
    <bullet> Designing a Virtual Field Trip
    <bullet> Differentiating Instruction to Accommodate Learning Styles
    <bullet> Digital Storytelling in the Classroom*
    <bullet> Earth History*
    <bullet> Enhancing an Aligned Unit*
    <bullet> Finding the Best Educational Resources on the Web
    <bullet> Getting Ready for Algebra by Using Virtual Manipulatives
    <bullet> Helping Struggling Readers Improve Comprehension
    <bullet> Improving Reading and Writing in the Content Areas
    <bullet> Incorporating Primary Resources into the Social Studies 
Classroom
    <bullet> Making the Most of Adolescent Literature
    <bullet> Special Students in Regular Classrooms: Technology, 
Teaching, and Universal Design
    <bullet> Strategies and Tools for Teaching the Writing Process
    <bullet> Transforming the Classroom with Project-Based Learning
    <bullet> Unpacking the Delaware Recommended Curriculum
    <bullet> Using Patterns to Develop Algebraic Thinking
    <bullet> Using Real Data in the Math Classroom
    <bullet> Using Technology to Support Research and Presentation
    <bullet> Visual Literacy Strategies for the Classroom*
    The e-Learning for Educators project initially included eight 
states: Alabama, Delaware, Kentucky, Missouri, Mississippi, Hew 
Hampshire, Pennsylvania, and West Virginia. In October 2009, the 
project expanded to include Maryland and North Carolina.
    Significant Accomplishments across the project (from the Boston 
College (2009): Alabama Public Television e-Learning for Educators 
Annual Comprehensive Evaluation of the e-Learning for Educators 
Project):
    <bullet> The partner states trained 352 facilitators (online 
instructors) who have delivered more than 1,201 online professional 
development courses--far more than the target goal.
    <bullet> 225 teachers have been trained to design online courses; 
these educators have created more than 80 new courses that are aligned 
with state/local-identified instructional needs
    <bullet> Almost 22,000 teachers have enrolled in courses and 16,627 
completed courses for free or at a very low cost. Evaluation data were 
collected from 10,291 teachers.
    <bullet> On average, 32% of teachers in the online courses are from 
schools eligible to receive Title I School-wide funds but percentages 
vary by state from 60% to 7%.
    <bullet> Based on the most conservative teacher-student data 
gathered by the project, it is estimated that at least 700,000 students 
have been affected by efE training. If more liberal data are used to 
calculate student impact, 1,000,000+ students may have been impacted.
    <bullet> 90% of teachers completing e-Learning courses felt the 
quality of the courses were excellent (56%) or very good (35%).
    <bullet> 89% of participants feel they gained insight into new or 
different approaches to teaching from the e-Learning workshop.
    <bullet> 82% of participants report they are very likely to take 
another e-Learning workshop.
    <bullet> 56% became more skilled in using technology for 
instruction
    <bullet> 42% learned new subject-area content
    <bullet> Of teachers who have taken e-Learning for Educators (eFE) 
courses and completed a 6 month follow up survey, 66% indicated that 
they had already used the material learned from the online course with 
their students. Of those who are already using the material:
    --90% agree that when they used eFE content in class, students 
appeared more
    interested
    --89% agree that when they used eFE content in class, students had 
their diverse learning needs met
    --77% agree that students performed more difficult work
    --80% say that student work is of a higher quality
    A follow-up survey administered six-months after course completion 
allowed teachers to detail lasting impacts of the e-Learning workshop 
on their teaching practice and classroom instruction. Here are comments 
from two teacher respondents:
    ``I have been able to address individual needs for each student 
using the material and resources from this workshop. I have also been 
able to more accurately assess individual student progress, rather than 
whole group progress, and plan accordingly.''
    ``Using what I learned in the workshop and including new 
technology, I was able to involve every student in classroom 
activities.''
    The eLearning Delaware project has been a tremendous success in the 
State of Delaware and has been well worth the time and effort to bring 
the project from concept to fruition.
Student Assessment Data: Delaware Comprehensive Assessment System
    The State of Delaware is redesigning its student assessment 
program. The current Delaware Student Testing Program (DSTP), in place 
since 1998, will be replaced by the Delaware Comprehensive Assessment 
System (DCAS) in the 2010-2011 school year. The DCAS will enhance and 
strengthen the DSTP by providing a more accurate measure of student 
growth and more timely and detailed information to educators for 
planning and improving educational programs at the school, district and 
state levels. In addition, the DCAS will provide multiple opportunities 
for students to demonstrate proficiency and will provide increased 
information to students and parents, including a measure of fall-to-
spring and year-to-year individual student growth.
    Why am I talking about assessment when we are here to talk about 
how technology is transforming public schools? The Delaware 
Comprehensive Assessment System is an entirely online assessment. 
Delaware is moving to an online assessment because we want to provide 
immediate results; provide diagnostic reports to teachers within two 
days; provide students with multiple opportunities to pass; and be able 
to assess student achievement from an entire school year. This can only 
be done with online assessment.
    The purposes of the Delaware Comprehensive Assessment System are 
fourfold:
    <bullet> To measure student achievement of state academic 
standards;
    <bullet> To measure each student's growth over time along the 
assessment scale;
    <bullet> To provide the primary basis for student, school and 
school district accountability, pursuant to Delaware law and the No 
Child Left Behind Act; and
    <bullet> To provide schools and school districts with timely 
information useful for instructional program improvement.
    The DCAS is being developed to consist of the following five 
components:
    1. Online, Web-based summative assessments: a) for grades three 
through eight in reading and mathematics which are adaptive, and b) for 
one elementary grade and one middle school grade in science and social 
studies which are fixed form with the option for future transition to 
adaptive tests;
    2. Online summative End-of-Course Assessments for high school 
students in specific courses, to be determined, in mathematics, 
English, science and social studies;
    3. Online summative writing assessments to be given at grades five 
and eight and in high school, and online formative writing assessments 
in grades three through eleven;
    4. A Benchmark Growth Assessment for grades two through ten which 
is computer-adaptive across grade levels and given at least three times 
each school year; and
    5. An online Classroom Assessment Item Bank that provides teachers 
with high-quality formative assessment items and tools for the creation 
of tests aligned to specific Delaware Grade Level Expectations.
    Another driving factor is the desire to increase student access to 
technology. With the implementation comes a four-year replacement cycle 
for computers and the computers will be used for instruction whenever 
testing is not being done. Greater access to technology and integration 
into the curriculum are critical if we are to prepare students for the 
workplace of tomorrow.
    We are currently in the process of evaluating and recommending the 
winner(s) of the Delaware Comprehensive Assessment System (DCAS)--
Request for Proposals. The proposals have being evaluated and the DOE 
anticipates that contract(s) with the winning vendor(s) will be 
finalized no later than the end of July 2009. With the finalization of 
the awards, there will be preparation and pilots conducted during the 
2009-10 school year with the DCAS fully operational for the 2010-11 
school year.
Conclusion
    The good news is that we have made positive strides forward in 
Delaware with using technology to transform our public schools. This is 
seen at the curriculum and instruction level, the professional 
development level, and the statewide assessment level. eMINTS and 
eLearning Delaware are just two of many examples of how technology is 
transforming education in Delaware public schools.
    Unfortunately, as is the case in most states, we still have pockets 
of transformation rather than statewide, systemic transformation. With 
our transition to the Delaware Comprehensive Assessment System, we are 
moving toward systemic transformation. The bold move of taking all 
statewide assessment online will also drive an increased use of 
technology in curriculum and instruction, as well as, professional 
development.
    In conclusion, we hope these efforts to use technology to transform 
our public schools will be seen as a catalyst of change, even an 
accelerator of change.
    Thank you for your time and your support of education for our 
nation's children.
                               references
Maximizing the Impact: the Pivotal Role of Technology in a 21st Century 
        Education System http://www.setda.org/web/guest/
        maximizingimpactreport
Successful Practices Series: Report 2: Changing the Face of Education: 
        Missouri Leads the Way http://www.ccsso.org/publications/
        details.cfm? PublicationID=356
Source of statistics is eMINTS Evaluation Reports (2003-2006) at: 
        http://www.emints.org/evaluation/reports/
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. McAuliffe?

 STATEMENT OF JOHN MC AULIFFE, GENERAL MANAGER, EDUCATE ONLINE 
                         LEARNING, LLC

    Mr. McAuliffe. I would like to thank Chairman Miller and 
the rest of the committee for allowing me the opportunity to 
present here today. Hearing and seeing these other technologies 
and stories are truly inspiring to us at Educate Online.
    Educate Online is America's leading provider of live, 
personalized online tutoring services. We have successfully 
served more than 50,000 students since 2002 and currently 
serving students in almost 200 school districts across the 
country.
    All of our tutoring is done by certified teachers and 
delivered online to students in their home. Students are able 
to access this tutoring through a computer and Internet access 
provided free by Educate Online.
    Before I get into a little bit more detail on our 
technology, I wanted to make a couple of points. Number one, as 
you have seen here today, technology is truly transforming the 
way education is provided throughout our country. It is 
expanding the learning day, the week, and the year.
    It is redesigning the traditional classroom, and is vastly 
increasing student achievement. How do we know this? Because 
our program has been independently tested and shown that a 
typical Title I student who starts our program one grade level 
below can catch up to their peers after just 24 1-hour sessions 
of our tutoring.
    In the case of English language learners and other at-risk 
students, gains are even greater. This is also, in our opinion, 
just the first step in how this technology can be used.
    Second, because of the good work of the members of this 
committee and others in Congress, we can supply these tutoring 
services free of charge for Title I students through the 
supplemental education services program that you created.
    These students are the ones most in need, and the story you 
just heard gives you an example of what can happen when the use 
of technology can help drive student achievement. We would like 
to thank you for that opportunity to service these students.
    Now for a few facts about our program: We use U.S.-based 
certified teachers with bachelor's degrees and at least 2 years 
of teaching experience. More than one-third of teachers have 
master's degrees and 5 percent have Ph.D.s. Approximately 9 
percent are certified to work with ELL students, and 14 percent 
are certified to work with students with disabilities.
    All of our instructors also go through 8 hours of 
instruction related to our curriculum, our technology, our 
proprietary methods, and how to maximize student motivation and 
participation.
    Our curriculum is research-based and nationally recognized. 
We have more than 12,500 digital lessons created by third party 
educational publishing companies and an internal content 
development team.
    Our goal is to raise student achievement to meet state 
standards. We optimize our instructional time through an 
initial diagnostic assessment, which then derives a 
prescriptive, personalized learning plan.
    We also recognize the key role the parents, teachers, and 
principals play in educating these students. As a result, we 
provide both a parent and principal portal. These portals are 
updated for each student after each lesson to ensure data is 
completely current.
    The portal is secure and available 24/7. Parents can view 
portals through the computer provided by Educate Online if they 
do not have access to another computer. In addition, we send 
monthly progress reports to schools and districts, and we have 
a bilingual call center staff to address questions and 
concerns.
    As I stated previously, our program has been independently 
evaluated and measured demonstrating significant academic 
gains. We have also demonstrated evidence of increased 
performance on state assessments.
    In the 2007/2008 school year, 250 South Dakota middle 
students, predominantly native Americans, received tutoring 
from Educate Online. Ninety-one percent of these students saw 
gains on the South Dakota state assessment with an average gain 
of 18 points.
    I would like to now show you a demo of our technology at 
work. It is this technology that drives our success. We also 
believe, as I stated before, this technology has many more 
applications, a few of which I will talk about at the 
conclusion of the demo.
    [Play video clip.]
    Mr. McAuliffe. As you can see, the technology is at the 
heart of what we do, but it also has far-reaching applications. 
This platform should allow us to address many needs, in 
particular, where specialty labor shortages are depriving 
students in need.
    Several examples of this are speech therapists, reading 
specialists, and guidance counselors. In fact, we are running a 
pilot this fall in Pennsylvania where we are matching students 
with speech therapists online.
    We are also investigating how we can partner with community 
colleges that target recent high school graduates that may need 
remedial classes to be successful in college. Our plan would be 
to provide tutoring during the summer prior to them entering 
college, making sure they are ready for college-level work.
    In conclusion, I would like to, again, thank the chairman 
and members of the committee for inviting me to be here today.
    [The statement of Mr. McAuliffe follows:]

 Prepared Statement of John McAuliffe, General Manager, Educate Online 
                             Learning, LLC

    Good morning, I would like to thank Chairman Miller and the rest of 
the Committee for inviting me here today to participate on this 
distinguished panel to discuss technology in our schools. I am here 
representing Educate Online, America's leading provider of live, 
personalized, online tutoring services. Educate Online has successfully 
served more than 50,000 students since 2002 in our math and reading 
programs and currently serves students in almost 200 school districts 
across the country. All tutoring is done by certified teachers and 
takes place online at the student's home or at school. Students access 
the tutoring through a computer and internet connectivity provided by 
Educate Online, both of which are provided at no charge to the student.
    My message today is this: technology is transforming the way 
education is provided throughout our country. Technology can expand the 
learning day, week, and year for students and it can help us redesign 
the traditional classroom and school building if used correctly, 
education technology can vastly increase student achievement. We know 
this firsthand, as research on our program has proven that a typical 
Title I student who starts school a full year behind in reading, can 
catch up to his or her peers with just 24 one-hour sessions of 
tutoring--typically spread over about two months in time. In some 
instances, we have shown even greater results with English Language 
Learners and other at-risk groups of students.
    On average, SES students show grade equivalency gains of 0.74, or 
seven months grade equivalency increase, on norm-referenced assessment 
after 24 sessions. So a third grader who scores as a beginning second 
grader could be reading at or close to grade level after 24 hours of 
instruction.
    Our program is generally 24 sessions and students typically take 
two to four 60-minute sessions per week. Sessions are offered seven 
days a week, generally after school and on weekends, offering 
tremendous flexibility to our students. Using the headset and computer 
provided by Educate Online, students log on to a virtual classroom and 
are matched with an instructor who is usually logged on from his/her 
home. Students and teachers are able to view the same learning 
environment, so they can work together effectively. Our educational 
programs in math and reading utilize individualized, direct instruction 
and mastery learning techniques to address each student's specific 
skill gaps. Teachers teach, and reteach as necessary, until the student 
truly masters the goals on his/her individual learning plan before 
moving on to the next lesson.
    All instructors are U.S-based, certified teachers, have a 
bachelor's degree and a minimum of two years of successful teaching 
experience. More than a third of our teachers have master's degrees, 
and about 5% have doctorates. Approximately 9% are certified to work 
with ELL students, and approximately 14% are certified to work with 
students with disabilities. All instructors undergo eight hours of 
synchronous training which includes a comprehensive review of course 
curriculum, proprietary methods, online technology, and methods for 
maximizing student motivation/participation.
    At the end of the training, the instructor must pass an assessment 
that evaluates knowledge of our curriculum, assessments, and logistical 
processes. After training, new teachers practice delivering sessions 
and shadow other teachers before they are allowed to tutor on their 
own. New instructors work with one student at a time, working up to 
tutoring three students at a time, over a period of weeks. Team leads 
work with the Educational Services director to mentor teachers by 
sharing teaching tips and valuable information about new research or 
teaching strategies. Educate Online has a dedicated team of monitors 
who score teachers periodically and use this as the basis for 
additional coaching, mentoring, and professional development. This 
ensures the highest quality of teaching for our students. Student-to-
teacher ratios never exceed 3:1.
Educate Online's program has been independently evaluated
    In a 2006 independent analysis, funded by the United States 
Department of Education, the effectiveness of the Educate Online 
program was evaluated by measuring pre- and post-assessment test 
scores. The analysis, conducted by Rockman Et Al, demonstrated that 
students in the Educate Online program performing below grade level, 
demonstrated scale score point gains on the California Achievement Test 
(CAT). Researchers examined data from more than 6,000 elementary, 
middle, and high school students, and analyzed the increase between the 
CAT pre-test and CAT post-test to determine academic progress. Data was 
examined from students across the country.
    The study found that after completing the Educate Online's math 
program, students demonstrated grade-level gains in math of 0.2 to 2.2 
over a control group and what was most impressive was that the lowest 
performing students demonstrated the greatest achievement scores.
    Researchers again compared academic results from students in the 
Educate Online program with a control group of students during the 
2007-2008 school year and findings indicate that students who completed 
the reading program in the fall of 2007 demonstrated an average grade-
level gain of 1.65. What is exceptional is that students classified as 
English Language Learners in the fall 2007 program demonstrated average 
grade level gains of 1.3.
    Educate Online also contacted classroom teachers to further gauge 
our impact on students. In 2006, with permission of the San Diego 
Unified School District, Educate Online surveyed teachers of students 
who completed our program. 79% of teachers responded that there was a 
noticeable change in student performance due to the Educate Online 
program. 83% of English Language Arts classroom teachers indicated that 
they had seen a noticeable change in their student's ability to read. 
83% of math teachers indicated that their student demonstrated growth 
or a noticeable improvement in their ability to solve math problems.
    Our program has also resulted in students increased performance on 
their state assessments. In the 2007-2008 school year, 250 middle 
school students, mostly Native American students, in South Dakota 
received tutoring after-school and during the regular school day from 
Educate Online. 91% of participating students saw gains in reading on 
the South Dakota State Test of Educational Progress (STEP). On average, 
students who received tutoring from Educate Online experienced gains of 
18 points on the STEP.
Ensuring Student Safety
    To ensure student safety, the computers are loaded with security 
software embedded in the operating system, only allowing students to 
access the Educate Online program until they complete their tutoring. 
While in our program students and parents can only access the Educate 
Online site. We secure our computers to ensure students do not have 
access to any inappropriate content and also for performance reasons: 
First, we want students to use the computers for tutoring while in the 
program; second, we do not want students or our teachers to 
accidentally download a virus that would interfere with the performance 
of the computer; and third, we want to protect our students from 
receiving emails from unknown persons. Students who successfully 
complete the program earn the right to keep the computer. We then send 
them a code to ``unlock'' the computer and it is theirs to keep and use 
accordingly. Families incur zero costs with the Educate Online program.
Educate Online's Educational Program
    The Educate Online curriculum contains more than 12,500 digital 
lessons created by third party educational publishing companies, such 
as Monotype and Words and Numbers, as well as an internal content 
writing team. All course content was custom created to directly support 
a predefined curriculum derived from National Reading Panel (NRP) and 
National Council of Teachers of Mathematics (NCTM) standards. Each 
lesson is a designated ``type'' that supports a specific phase of the 
``teaching cycle'' that facilitates the mastery learning and 
scaffolding methodology--pre-test, guided practice, independent 
practice, problem solving/applied practice, and mastery test.
    In addition to adhering to NRP and NCTM standards, Educate Online 
has directly mapped our curriculum to state standards, and can provide 
detailed alignments.
    Educate Online's Academic Reading program is a comprehensive, 
systematic approach to developing reading skills. Direct instruction is 
the key component in each of its five major strands: phonemic 
awareness, phonics, fluency, vocabulary and comprehension. Using guided 
practices in phonics, vocabulary, and comprehension, the instructor 
models and reinforces skills while gradually transferring the 
responsibility of monitoring to the student.
    The Math Essentials program focuses on problem solving and the 
application of mathematics to real-life scenarios. The objective of our 
math program is to prepare students to excel in mathematics by 
mastering each level before moving on to the next. Our math program 
helps to fill the gaps and build solid mathematical foundations. These 
foundational concepts are then used to build on more complex operations 
and concepts such as fractions, algebraic reasoning and more.
    Both programs optimize instructional time through use of diagnostic 
assessment and prescriptive, personalized learning plans.
    Educate Online is accredited by CITA, the Commission on 
International and Trans-Regional Accreditation.
Communicating with Parents
    We update the Educate Online parent website after every session, so 
that using the computer provided by Educate Online, parents can see 
absolutely up-to-date progress reports for their child. They can also 
view the lesson content to help reinforce the child's learning. The 
progress reports illustrate the skills each student has mastered and 
outline the upcoming lessons that the student will be completing. The 
parent website is also where parents may schedule tutoring sessions for 
their children at their own convenience, 24 hours a day, seven days a 
week.
    We make every effort to make it easy for parents to contact us. 
Educate Online has a trained bilingual (English and Spanish) call-
center staff to handle technical problems, parent questions, and any 
other issues that may come up during the program. Our help line is open 
during business hours and any time tutoring sessions are offered.
    At the end of the program, parents receive a final report on their 
child's progress.
Communicating with Schools and Districts
    Educate Online has been working to find new ways to communicate 
with districts and schools consistently and effectively. A new 
communication tool for the 2009-2010 school year is the Principal's 
Support Package. Principals will be able to log onto a secure website 
and see student progress, at their convenience. The website will be 
updated after every tutoring session delivered, ensuring up to date 
information and the ability to share that information with classroom 
teachers. Educate Online also sends monthly written progress reports to 
the district, and will also send progress reports to district schools. 
If the district provides contact information for classroom teachers, 
Educate-Online will provide student's regular classroom teachers with 
monthly progress reports for each student, so that the teacher can see 
the skills their students are mastering in tutoring.
Educate Online Our Future Programs
    Educate Online is in the process of piloting the use of our 
technology to develop a speech and language program. Through this model 
we will connect students via the internet with speech pathologists. We 
think this technology will be particularly useful in communities where 
they are experiencing a shortage of speech and language pathologists.
    Additionally we are partnering with community colleges to target 
students that just graduated from high school but need to take some 
remedial classes before entering college. This program will provide 
tutoring to these students the summer between high school and college 
and target student's individual skills gaps so that by the fall the 
student is prepared for college.
Conclusion
    Again, I would like to thank to the Chairman and Ranking Member for 
inviting me to be here today so that I can share the success our 
technology program is having for students and schools.
    I am happy to answer any questions from the Committee.
                                 ______
                                 
    Chairman Miller. Thank you very much. Thank you to all of 
you for your testimony, your demonstrations and your expertise.
    Ms. Short and Ms. Bergland? I might ask you--if you could 
both address part of this question, and that is you both 
alluded to the impact of this on professional development and 
also the ability to provide differentiated instruction to 
students who learn either in different ways or learning at 
different rates.
    The assumption is that that this is very hard to do for a 
teacher that doesn't really have a mastery of the subject 
matter content. But I just wondered how this plays out. I 
assume the better educated the teacher in math or science or 
whatever the subject matter is would also lend to the leverage 
provided by the technology.
    But I just wondered if you might address that and how the 
professional development plays into the usage of technology 
with the students and given the differentiations that we see in 
those students in almost every classroom that we have?
    Don't be shy.
    Ms. Bergland. I will go ahead and attempt to answer that. 
First of all, the professional development is probably the most 
important thing that you need to do if you want to really see 
the power of technology to be used.
    I think what you are getting at is maybe how can we help 
teachers learn their content better, particularly if they have 
a generalist certification, and they may not have all the 
specific skills.
    And there is a new way where it is called ``personal 
learning networks'' where teachers can connect with other 
professionals across the country now, and they can do that 
using the Web 2.0 tools.
    And so there is lots of different ways that teachers can 
learn their subject matter a little bit better so they can do 
that differentiation. But one of the things that is the power 
of the technology is a lot of times these programs naturally do 
that.
    We use a product called TeamBiz where it is a reading 
program, and every day, the kids read current events, but the 
teacher has already preloaded and determined the reading level 
of teach of the kids.
    And so they are all reading the same subject matter, but it 
is at different reading levels. And so it is naturally being 
differentiated for them, and no one needs to know that they are 
not all at the same level.
    That is just one example.
    Chairman Miller. Ms. Short?
    Ms. Short. Are you asking about professional development in 
order to incorporate the technology or for your content?
    Chairman Miller. Well, really both, because the question is 
also whether or not we need to provide additional development 
and competency with the subject matter of the class and then 
also the use of the technology.
    And does one make up for the other, or I would assume that 
they would be somewhat complimentary if they both took place.
    Ms. Short. I think it would be very difficult to use the 
technology if your subject matter wasn't there. As teachers, in 
order to maintain our teaching certificates, we are required to 
take professional development courses throughout the course of 
a few years.
    Also, our county offers professional development courses in 
technology in your content area in order to be able to use the 
technology to meet the different learning styles.
    Obviously, if you don't know your curriculum very well, you 
are not going to be able to describe it in multiple ways in 
order to reach different students.
    Chairman Miller. Mr. Kinney, do you have the ability to 
fill in subject matter content for teachers that are presenting 
the material that you are presenting to the classroom?
    Mr. Kinney. Yes. I think one of the abilities of digital 
content and technology to provide within the context of a 
classroom is the packaging of materials to make it--I don't 
want to say ``easier'', but to make those materials more 
accessible to students in different ways and to make that tool 
easier to use for educators across the country.
    So for example, if you think back to the example I used of 
the food chain, where you can now take a term, and instead of 
displaying that just as a text resource, you can display it in 
multiple formats. You can use animation and video and audio.
    And so, the teacher doesn't have to have a deeper knowledge 
of a specific content area, it is just they do have to have the 
knowledge of utilizing that resource in a way that best meets 
those children's instructional needs.
    So I think there is a great deal of professional 
development around, not just the resources themselves, but also 
how do these resources affectively reach each child and their 
instructional needs within the classroom.
    Chairman Miller. Thank you.
    Mr. Chopra? How do we minimize schools getting locked into 
proprietary systems over a long period of time that may not 
work out? Or as you suggested both in Virginia and, I think, 
the governor's call in California is really talking about an 
open sourced textbook there that people would be able to change 
and adapt and move around.
    I don't know how you quite control that content, but how do 
we make sure that we get the benefits. Members of Congress like 
to often say they went into a classroom and there was a 
textbook that said, when man lands on the, when man goes to the 
moon or something like that--and that it is outdated. That is 
interesting. Today, you don't have to suffer that.
    But how do you maintain the integrity of these systems in a 
Wikipedia world if you are going to make an open-sourced text 
or curricula available to schools?
    Mr. Chopra. Mr. Chairman, that is a terrific question, and 
I think the key to the question is: How do we govern content 
that is not traditionally seen as a single textbook.
    One of the benefits of our move towards a data-driven 
environment in education is the ability now--or as we make 
these investments--to focus on what content works in the 
classroom by the various experiences.
    So Ms. Short might have a compilation of lesson plans and 
perhaps a chapter of some book that she is used to convey the 
value of a particular plan. Hopefully, we will be able to 
understand the fact that the content itself was useful in 
presenting that concept.
    As long as there is a thoughtful way at the state level to 
govern the quality of that content, that was at the heart of 
the pilot we had seen in Virginia. So a rigorous quality review 
on content organized in new ways--when we think about the old 
compact disc, we would buy a disk, and it would have lots of 
content on it.
    Today, we buy songs, and they have discrete individual 
components. I think in the same way, educational content is now 
being in a similar fashion chunked up by these compilations of 
video clips and chapters of learning.
    So the core question of yours about proprietary versus open 
is so long as the content can be evaluated, I believe the 
marketplace can decide what is the most effective means to 
deliver that content.
    It might be on a, you know, a proprietary hardware platform 
like an eBook reader that might take this content and make it 
available. We would envision a wide range of innovations in the 
devices and the method by which that is dispensed.
    So long as we have thoughtful understanding of which 
content works, and that, I think, is the key to the success of 
these initiatives.
    Chairman Miller. Thank you.
    Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    Mr. Chopra, are we at the federal level--the congressional 
and executive branch--delivering in the most organized and best 
way we can, in your mind--you can play God here, and tell us 
whatever you want--the whole improvement and technology driven 
education, or should we be doing this differently or funding it 
differently, or do you have any thoughts about that?
    Mr. Chopra. Thank you.
    Mr. Castle. Not details, but just a broad stroke.
    Mr. Chopra. No, at the highest level, I think what you have 
is a policy priority of the president that you saw in real life 
witnessed today on these phenomenal panelists--I am sort of 
humbled to be aside them--and I do believe we need to dialogue 
in ways to best leverage the capacity of technology but 
focusing on its use in the classroom.
    So I think to the extent that we engage in some concepts 
around how we can better evaluate this success in sort of a 
thoughtful research-based way on the use of the technology, we 
might be in a better position to ensure a societal return on 
investment.
    I intend to work very closely with my colleagues across the 
administration, obviously Secretary Duncan and Jim Shelton, in 
particular, to bring some rigor to the thought process and to 
be supportive in, what I hope will be, a dialogue over the 
coming weeks and months and making this even more effective.
    Mr. Castle. Thank you.
    Perhaps, Ms. Short and Mr. Real are the ones who provoked 
this question, but others may want to answer it, and that is 
the question of how much are we really improving as far as the 
use of technology is concerned?
    Ms. Short, you cited one student who improved a great deal, 
and Mr. Real, you obviously cited your own example of that.
    But my concern is just on the measuring, is there some 
methodology by which we can determine they are truly doing 
better?
    I mean, I can tell you that the teachers I disliked going 
to classes the most, are the ones who probably were the best. 
There were two women who were teachers of mine who were just 
mean and hard and tough, and I look upon them now as having 
actually taught me something.
    I never told them that, unfortunately, they have passed on. 
And I just worry that, you know, this all may seem to be 
working because it is engaging students. But is it truly 
working in terms of improvement levels, and can we document 
that in some way or another?
    And do you have any responses about that? Virtually all of 
you testified to that, and I don't doubt it. I just want to 
make sure we are documenting this in some way or another.
    Mr. Real. I just think there is a lot more resources that 
we have as students today, because before, you know, the 
traditional high school, you could always hide behind, like, 
``Oh, the teacher doesn't like me. I am just going to quit.''
    Whereas now, you see so many people doing it. There is 
always a competitive edge in high school--especially in high 
school. There is such competitive, you know--``What number are 
you in your class rank? What is your GPA''? And now you have no 
excuses.
    Now you can do as much or as little as you want, and in our 
community, it is as much as we want. Because whereas before, 
there was the little, you know, there wasn't that many sources.
    And now there is, you know, for everything, you know, I--
personally, me, there was a lot of resources that many of my 
students had just because of my situation. I mean, I learned 
how to tie a tie on YouTube. That is how I learned it. You 
know, whereas their father could have taught them before they 
went to church.
    You know, I went on YouTube and now I have resources for 
life situations as well as, you know, school resources, and 
that is where I got a lot of the knowledge that I got about 
what are the universities that I wanted to go.
    Because I couldn't go on tours. So I got everything online 
and everything by word of mouth of where to go online, whereas 
before, it was just word of mouth. So I think the resources 
that we have now are just unbelievable, and that is what has 
opened the doors to me today.
    Mr. Castle. Ms. Short?
    Ms. Short. This year I have seen an amazing difference 
between the amount of engagement of my students and the 
hierarchy thinking that they have been involved in.
    But when we had this technology incorporated in our school, 
we didn't do it from a statistical standpoint. It wasn't 
researched-based. So I don't really have like something to 
compare it to.
    I know that I only have two students that failed my class 
this year out of 125 students. Last year, I probably had about 
12 percent of my students who failed. So it went down 
significantly, but I don't know if it is--you can't compare it.
    Last year, those students were in seventh grade. They had a 
different science teacher. This year, they have me. It is 
different content. It is really difficult in education to 
compare the two when there are so many variables.
    Mr. Castle. Mr. Chopra, did you want to comment?
    Mr. Chopra. Your question is at the heart of ensuring we 
have a return on taxpayer investment, and I might suggest that 
we grappled with this issue in Virginia.
    One of the ways in which we evaluated success was actually 
flipping the model around. What problem were we trying to 
solve? When we looked across the challenges in our test scores, 
we found that sixth grade algebra--pre-algebra, frankly, had 
been our worst performing subject and, in fact, had been in the 
68 percent order of magnitude of success.
    So we took that problem, and then issued a challenge to 
technology developers to build mobile applications. In fact, 
that contest is underway now--it is going to expire at the end 
of June--to say, help bring about innovations through 
technology that will help us close what is a performance gap in 
this narrow subject we identified through our research on 
fractions, proportions, and so forth.
    So if we flipped the question and said, ``What is our 
policy or educational outcome objective,'' and then challenged 
the technology industry to help develop applications and 
strategies to meet it, we are going to hopefully see ourselves 
in a better position to assess the marginal value of that 
particular initiative.
    And I think that methodology might be helpful as we move 
forward, Congressman.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman. I am going to follow 
through on your question. You know, when I taught school over 
40 years ago, I was considered advanced technologically, 
because I knew how to thread the movie projector. [Laughter.]
    Other teachers would call upon me to help them on that, and 
then when the federal government began to get involved in 
assisting schools and purchasing some of the technology, a lot 
of it wound up in the closet.
    My question then--and I will address it to you, Ms. 
Bergland, and others might want to answer--to what degree do 
teacher training institutions prepare the students to 
effectively use existing and rapidly changing technology and 
software material?
    Ms. Bergland. Did you say the higher ed?
    Mr. Kildee. Teacher training institutions, in general.
    Ms. Bergland. Okay. First of all, I will tell you that when 
I first started teaching, I always wanted to be across from the 
football coach, because he could help me when the projector 
didn't work. He knew how to use it better than anybody.
    I would say that we work with our teacher training 
institutes. I mean, Texas A&M University is in my community, 
and we work with them, and their educational technology, but it 
is something that we do tend to have to make sure that the--a 
lot of the students coming out of college, they know how to use 
technology. That is not the problem. It is learning how to use 
it instructionally and having good--and that still takes some 
time.
    So we are still working on that. I think the education 
departments in the universities do a good job, but they are 
learning a lot of their content from college professors that 
are still standing and delivering instruction the old, 
traditional way.
    Mr. Kildee. I guess then that gets to the heart of my 
question: How do the teacher training institutions either 
during the undergraduate years or graduate years teach them how 
to actually make that technology effective in a classroom?
    Yes?
    Mr. Kinney. One of the things that we have done at 
Discovery is, obviously, the professional development around 
this is such a critical component, because it really is a 
change in the way we are asking people to deliver instruction.
    We work with Wilkes University in Pennsylvania and actually 
developed a masters program in using instructional media 
effectively in the classroom, and so we had experts from around 
the country who developed these courses and actually deliver 
these courses both online and in person in a masters program 
for current in-service teachers.
    So that is one of the things that we did to address that. 
The second thing we do is really work with administrations of 
school districts who are implementing a systematic approach to 
really look at their comprehensive professional development 
needs to make sure that we provide ongoing plans that are 
multi-year to make sure that people are effectively using this 
in a classroom.
    Because, even if people know how to use the technology, I 
think, your point is right on. Using it for an instructional 
purpose is really a different thing.
    Mr. Kildee. One thing we don't want is what I call the 
Carter Glass syndrome--Senator Carter Glass--very famous 
senator--the Glass-Steagle Bill. When the dial telephone came 
in, he refused to use it. He would just dial zero--the most he 
would do--and then tell the operator which number he wanted.
    And, you know, in every profession, you can have that 
Carter Glass syndrome where they just are used to one system. 
This is the system they learned when they started teaching, and 
you have kids coming in, and you want to have a teacher, 
whether they have been teaching 1 year or 25 years, a teacher 
who moves with the use of the new technology and the materials 
that go with that technology.
    But both teacher training institutions and the school 
system has to push those teachers, I think, to use the new 
technology and don't fall into the Carter-Glass syndrome.
    Any other comments on----
    Mr. McAuliffe. Yes, I would like to comment. Technology 
allows you to do many things. One, the fear of a child being 
nervous about technology--you shouldn't worry about that. That 
is usually the easiest of the problems.
    The teachers in our program get trained 8 hours so that 
they become very familiar with the technology. In addition to 
them being trained on the technology, they are also trained on 
student participation and motivation to make sure that they 
make the use of the technology easy for those students.
    To address a couple of the other questions, if I may very 
quickly, technology allows you to do pre-assessments and post-
assessments to very effectively measure a student's academic 
progress there.
    In our program, the pre-assessment will drive a 
prescriptive, individualized learning plan that will lead the 
teacher through the program through mastery learning where they 
will teach and re-teach the lesson until the student has 
learned that lesson and then move onto the other lessons.
    So technology can allow you to address many of the concerns 
that you gentlemen have raised today.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    Ms. Short, you know, parental involvement is one of the 
most strongest predictors of future academic success.
    In your testimony, you mentioned that parents have access 
to lesson plans and homework help, and have you seen parents 
become a lot more involved in children's education as a result 
of this?
    Ms. Short. Sometimes I dread getting onto my computer and 
checking my e-mail, because it takes 45 minutes to respond to 
all the parent communication.
    Yes, parents are definitely involved. Even in my school 
with the diverse population, they are involved. I have had 
various scenarios this year where my students have been 
absent--parents will e-mail me.
    They say, ``What are you doing today? Can you give me your 
lesson, your review sheets, your flip charts''? And I have 
uploaded that onto a resource that we use in our county called 
Edline.
    And then within an hour, a parent e-mails me back and says, 
``Thank you very much. We have everything. She will have it for 
you the next day.'' So it is----
    Mr. Hare. That is incredible.
    Ms. Short. It is incredible. And our students and parents 
have access to Edline. On a daily basis they can monitor their 
grades. They can check to see when homework assignments are 
due, and when their next assessment will be.
    Mr. Hare. Wow.
    Mr. Chopra, I am the co-chair of the House for Rural 
Education Caucus, and I am particularly interested in how 
technology can help rural schools overcome the unique 
challenges such as lack of financial resources and geographics 
and things of that nature.
    You highlighted in your testimony an innovative program 
being implemented in a rural Virginia school district called an 
Open Classroom Project, and I wonder if you could tell me a 
little bit more about how this program works.
    And can school districts use this program to connect to and 
collaborate with other school districts, particularly in the 
rural communities, because, you know, I have a huge rural area, 
and I am very interested in making sure that those young kids 
get the opportunity to get the same type of education as the 
kids in the bigger cities do.
    Mr. Chopra. I thank you for that question. In fact, rural 
communities, I think, are a great source of potential of next 
generation innovation if we can connect those communities in 
more meaningful ways. So we had a very high focus on that 
aspect.
    This particular initiative is sort of the necessity as the 
mother of all invention. The school district was facing budget 
shortfalls and tried to find ways to save money. The technology 
department said, ``Hey, we think we could actually get more 
with less.'' And they said, ``Look, we could put together a 
compilation of tools that would improve parent communication, 
teacher-to-teacher sharing, student engagement, and we could 
cobble together a series of tools that are available more 
freely and low cost in the market and assemble them in this 
little district.''
    Governor Kaine had given them a little grant to document 
all the work they had done so it could be replicated in 
communities all across Virginia, and frankly, the country. I 
included a Web URL for the Virginia Open Classroom Initiative, 
vaopenclassroom.org.
    Anybody can download the tools that they have been using 
effectively in their school district. It is extraordinarily 
cheap. In fact, in most cases, free. And they are focusing on 
the resources that will actually empower all of the components 
that you have heard talked about here today.
    So if we can keep the infrastructure as modest in their 
expense as possible. Take advantage of broadband, which we 
haven't spoken as much of today, to ensure that we have the 
kind of capacity for resource sharing in our rural areas, and 
most importantly, focus on new content that we think could help 
address some of the long-standing challenges around educational 
attainment.
    We have in our most rural communities very low rates of 
educational attainment, and incremental ideas are not making 
the kind of breakthrough change we need. And so we took, for 
example, the old GED curriculum for adult ed and mashed it up 
with Microsoft's Learning Academies for Technology and projects 
that would give students a chance to experiment.
    And we think boldly that in 6 months, a dropout could be a 
technology worker, and we are going to try those kind of 
experiments. And I look forward to working with you on trying 
to find game-changing ideas to support our rural communities, 
because it is critical for our success.
    Mr. Hare. I would love to work with you on that. And I know 
I am running out of time. Ms. Short, just so I get the figures 
right at the end of it, and by the way, I think I got it right 
when I hit 16 percent, so I didn't want to be the only one on 
the committee to get it wrong. I am glad I got it right. That 
would have looked great with my chairman.
    What did you say the United Kingdom had or Great Britain 
had in terms of the percent versus what the United States--we 
had 16, and they have what now?
    Ms. Short. Seventy.
    Mr. Hare. So they have 70 percent, and we are at 16.
    Ms. Short. Seventy percent of their classrooms have 
interactive boards.
    Mr. Hare. What do we have to do from our end of it to be 
able to get that up? I mean, that to me just is wonderful 
technology. What do we have to do here?
    Ms. Short. Funding. [Laughter.]
    Chairman Miller. Next.
    Mr. Hare. Ms. Short, I just can't thank you enough for your 
answer.
    Chairman Miller. Some things never change even with the 
technology.
    Mr. Hare. Thank you, Mr. Chairman. Well, we will work on 
that.
    Chairman Miller. Ms. Hirono?
    Ms. Hirono. Thank you. I would like to follow up on Mr. 
Hare's line of questioning, because this all is really 
impressive, and Ms. Short, you must be a very well-liked 
teacher, because just sitting here watching your demonstration 
made me think that I would have liked to have been in your 
class.
    Mr. Chopra, I am curious to know, have you done any kind of 
a study on how much it would cost for our country to get up to 
speed on, you know, the wideband and all of that for all of our 
schools, realizing, of course, that it is not the federal 
government's role to pay for all of this, but just wondering 
how much would it cost our country?
    Mr. Chopra. I don't have those figures, but I might flip 
the question, and that is, how might we drive more innovation 
into the marketplace. So I could produce facts and figures on 
the cost of a laptop for every child, maybe 4 or 5 years ago, 
and that would have presumed a certain cost per device.
    Today, we don't know what the device is going to look like 
that kids are going to have in their hands to be able to 
interact and learn. That device might cost of 50 bucks or a 
hundred bucks, and we might naturally find ways to find 
operational savings to cover that cost.
    I think the bigger challenge for us is ensuring, I think, 
to Congressman Castle's question, where is the value in being 
more rigorous about how we present the outcomes that we are 
trying to achieve? Does it improve on math and reading and all 
the various things you have heard anecdotally described today.
    The more rigor we have around what the ``killer 
application'' is that would drive performance, I am confident 
our private sector will innovate to bring new products, devices 
and tools into the marketplace, and therefore, drive prices 
down and make it easier for us to be successful.
    That doesn't mean that we shouldn't look for creative ways 
to pilot research and development initiatives and other things 
with the resources we have made available so we can find ways 
to drive that kind of game-changing innovation, but if the 
number were to be based on current prices, it would be 
significant.
    Ms. Hirono. Ms. Short, how much say did you have in your 
school as to what kind of technology would be made available to 
your students? Because you use a whiteboard, but there are any 
number of other ways that your school could have gone. Did you, 
as a teacher, have a say in the matter?
    Ms. Short. Actually, we didn't. Our county was going 
through middle school reform and a technology modernization, 
and within the summer, they had installed the Promethean boards 
into the classroom, and the first day of school, they were 
there, and we were ready to use them.
    Ms. Hirono. Do you think that would be an important element 
as we move forward that the teachers would become engaged so 
that this is not yet another program, another method that is 
imposed upon teachers?
    Ms. Short. At the beginning of the year, a lot of teachers 
thought it was imposing, but throughout the year as we got 
better with the technology, it became fun. It became fun. My 
husband and I--he is also a teacher--there is an unspoken 
competition as to who could create the best foot chart.
    Other teachers, even our veteran teachers who have been 
teaching the same curriculum--well not necessarily the same 
curriculum for 30 years, but they have been teaching in the 
same manner--they became excited to use the technology as well.
    They were coming to professional development; they were 
coming to other teachers who were using it. Unfortunately, we 
weren't able to take our staff development subs and walk into 
other people's classrooms to see them use the technology 
efficiently, and we kind of need that back.
    We need the time to go into classrooms and see teachers 
using this effectively, and we just didn't have an opportunity 
to do that this year.
    Ms. Hirono. Ms. Bergland, you mention--and others of you 
mentioned--how important the professional development part of 
this is, because I can envision teachers who really may not 
even know their subject area very well, but then they can maybe 
hide behind some of the curriculum that would be packaged using 
technology, and that wouldn't be such a great thing for a 
student to sit there knowing that the teacher is just sort of 
slapping these things onto a whiteboard or whatever, a 
computer.
    So this part of how we are going to move forward as a 
country, I think, is very challenging. Do you have any thoughts 
on how we can have the two working in concert?
    Ms. Bergland. You touched on the most important thing, and 
that is professional development. When we first started this, I 
told my school board, the technical issues, which at first, 
everyone is concerned about--are kids going to put, you know, 
viruses on the machines, and how you can have enough bandwidth 
to have wireless everywhere--I told them that is easy.
    What is difficult is getting teachers to change the way 
they have been teaching. And you can't just do the ``how-to'' 
training at the beginning. It has to be ongoing, and it has to 
be job imbedded, and you have to take them through a continuum.
    You are going to start with ``how-to'', and then you are 
going to move into, ``How do I use it with kids''? ``How do I 
manage a classroom where very student has a laptop''? That is a 
very disruptive thing that happens to a teacher if they are not 
prepared for it, but you can't stop with the teacher.
    In fact, you need to start with the administrators, because 
they are the ones that can empower the teachers to do the 
things that need to be done. And it needs to be the 
administrators at the campus at all levels, but it also needs 
to be the administrators at the district level, because the 
curriculum coordinators have a very important part here.
    Because in our first year of implementation, we had their 
vocal support, but their real support wasn't there, because 
they weren't a part of the whole buy-in process. So after that 
first year, we had to bring all of our curriculum coordinators 
in, and start with them, and once they saw the potential, then 
they began to support it, and then the project was successful.
    Ms. Hirono. Thank you. I think my time is up. Yield back.
    Chairman Miller. Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    And, Mr. Chopra, I want to thank you for your hard work in 
Virginia, and I know you have got a lot on your plate. You have 
got all of the technology, generally, but do you also have 
cyber security? Is that part of your challenge? So you have 
been doing a lot. Thank you very much.
    There is a lot of fancy equipment out there that is very 
expensive. How would a school system know what works that will 
actually better the education, and what would be a waste of 
money?
    Mr. Chopra. That is a terrific question, Congressman, and 
thank you for your leadership in the Commonwealth as well.
    I would say that one of the advantages of programs like our 
Education Technology program is that we are building up 
capacity within state department's of education to facilitate 
some degree of thoughtful evaluation and support.
    In Virginia--I don't know how many other states have a 
similar model, but we have thoughtful administrators who can 
assist and provide kind of best-practice sharing so that local 
schools can have the kind of advice and counsel they need in an 
objective manner so that they can make the right technology 
investment choices.
    We do some of this around guidance on procurement. We do 
some of this by sharing through training professional 
development the technology resource administrators that many 
states have, and we have nearly 1,200 of them across the 
Commonwealth of Virginia that are funded largely by the state 
but supplemented by federal resources.
    That network helps to ensure that the decisions that are 
made are fair, effective, and that they are being properly 
deployed. My hope is that as more and more of our research 
thinking goes into the evaluation of the quality of various 
interventions that it will help to drive the market towards 
better and better results.
    But we are still further down the road for that activity.
    Mr. Scott. Thank you. Following up with the gentleman from 
Illinois, you talked about rural areas. One of the advantages 
in technology is you can have a virtual teacher who can teach 
courses for which there is not a critical mass of students.
    Are virtual teachers as effective as regular classroom 
teachers, and what can we do to make sure they are more 
effective?
    Mr. Chopra. If it is virtual, Ms. Short, I would imagine it 
would be very effective.
    Mr. Scott. Does somebody----
    Mr. McAuliffe. Yes, I can address that----
    Mr. Scott. Mr. McAuliffe?
    Mr. McAuliffe [continuing]. Because we do use virtual 
teachers. Again, I will go back to the academic gains. We 
measure that on every student that starts our program and 
completes our program, and we have seen fairly dramatic 
increases in grade level performance.
    We also made sure that all of our teachers are certified, 
have taught in a classroom for at least 2 years, so they are 
familiar with the teaching environment. Then we take the time 
to train them on the technology.
    I think the beauty of our model is the fact that you can 
tap into a teacher base, whether it be at night, whether it be 
on the weekends, whether it be somebody that might be in a 
high-population area that can service a child in a rural 
environment.
    Mr. Scott. Now, when you say ``virtual'' are you talking 
about live virtual or recorded virtual?
    Mr. McAuliffe. Yes. No, ours is a live personalized virtual 
environment. The other area that I think this is very 
important, there is a lot of needs going unmet right now.
    The example I used before was speech therapists. There are 
thousands of kids in our school systems that need that service 
that aren't receiving them because of the lack of speech 
therapists out there.
    We have the ability to match a speech therapist, wherever 
they may be, with a student in school at their location using 
the computer.
    Mr. Scott. Thank you.
    Ms. Bergland, you indicated that laptops were extremely 
valuable in a student's education. Would denial of a laptop 
constitute a denial of equal educational opportunity?
    Ms. Bergland. (OFF MIKE)
    Mr. Scott. Sure. Sure it is.
    Ms. Bergland. I do think that my community--we have at 
least 30 percent--we just surveyed our students, and 30 percent 
of our students said they do not have a computer at home.
    And my own daughter is a junior in high school, and I talk 
to her about this a lot, and she does a lot of her homework at 
home using my laptop. And I have a lot of kids in my community 
that don't have those resources. So I think in the bigger 
picture, I think, I would have to answer yes to that.
    I think it is important. I think those kids that don't have 
that access at home are not playing on the same playing field. 
They do not have the same advantages of the children whose 
parents have not only the laptop but also bandwidth and the 
Internet access at home.
    Because when we ask the question about how many of my 
students in our school district have Internet access, we had 
about 35 percent that don't. And then it was about 45 percent 
that don't have cable access, because we were trying to figure 
out if we could label our cable franchise and get them to 
provide a cheap Internet access for our kids at home.
    So you do have kids who if we don't provide it at school, 
they are not going to have that opportunity, and they are not 
going to have those opportunities that they need to be able to 
compete with those kids that do have it.
    Mr. Scott. Thank you.
    Chairman Miller. Mr. Real, did you want to respond to Mr. 
Scott's last question about access to laptops? I just thought 
you did. If you don't, that is fine.
    Mr. Real. Well, the access to the laptop, it definitely 
puts us on a different, you know, playing field, because it 
doesn't--like, before, where we just had paper and pencil, and 
you had to be creative in your ways, now you want to be 
creative while entertaining yourself at the same time, which is 
at every kid's heart.
    So when we want to get on the laptop, we can see this; we 
can do this, and when we can help each other out, that is what 
really gets us to do these really cool projects, because we can 
help each other out, expand on what we know, and then we can 
turn it in, and just everyone will stay in awe.
    And even when we present this, like, in PowerPoints and 
movie presentations, we look at what we look at what each other 
does, and we know for next time. So it is further learning 
every time we present--further learning.
    Because I remember when I was just a freshman, it was 
different, and it was so different, because it was just a basic 
ones--you just have a slide here, and now, you go in there, you 
have all these colors, you have things flying out, and--so it 
is just so much different.
    I think it just elevates, and it makes us do better.
    Chairman Miller. Thank you.
    Mr. Tierney:
    Mr. Tierney. As my friend Rush Holt says, ``The fundamental 
right to be entertained,'' which it doesn't hurt at all.
    I think maybe Ms. Bergland, Ms. Short, and Mr. Hartschuh 
might be able to answer this question: We have a whole cadre of 
teachers out there who have no background in technology at 
all--excellent teachers, been teaching for a long time--and 
obviously, it would be beneficial to have them become familiar 
with this technology and capable of using it.
    So what are we going to do? How do we most effectively get 
them to do that, and how long does it take to have a teacher 
with a long-teaching experience actually acclimate themselves 
to this technology and become able to use it efficiently?
    Ms. Bergland. There has been some research on that, and it 
indicates that it takes anywhere from 3 to 5 years starting at 
if you are at the level where it is in your face--is what I 
like to call it.
    You are at that point, you are saying, ``This isn't making 
my life easier,'' because you are having to struggle learning 
how to use it--to the point where you are being innovative with 
it and you are teaching differently--it takes 3 to 5 years.
    I think one of the things that you have already done in 
your Title II, Part D program, you have basically said that 25 
percent of the funds have to be spent on professional 
development.
    And I think there is even a proposal where you up that to 
40 percent. I think that is important.
    Mr. Tierney. Yes, I am just curious, you know, how do we 
motivate those teachers to not resist it on that? Anybody that 
might----
    Ms. Bergland. That is where you start with the 
administrators. The leadership has to buy into this, and 
teachers are going to do what their administrators want them to 
do.
    And they are going to take that leadership--if they are 
encouraged; if they are supported--you want to have all of the 
good professional development strategies that we know work.
    You don't want to do just the ``come in and train and sit 
down and leave.'' You want to have ongoing professional 
development. You want to make it relative to their subjects. 
You know, teachers like what we call ``make and take it 
sessions,'' where they can come in and they can actually then 
go back into their classroom and use it.
    And then you also--we actually hired an integration 
specialist that worked at our one-to-one campuses, and they 
would go in and plan with the teachers. They would also model 
teach for the teachers. And then you also want to imbed that 
technology into the curriculum, because if it is already 
imbedded into the curriculum, then it helps them with that.
    Mr. Tierney. Well, Mr. Chopra, in that line, is anybody 
taking an assessment of what our colleges that are preparing 
people to teach have on hand for the technology itself--the 
hardware and the software on there and the teaching core to 
teach teachers how to use that?
    Mr. Chopra. I don't know any national studies on that, but 
having visited with the network of colleges that are mostly 
engaged on teacher training, they see this as a key element of 
their work going forward.
    And, again, this notion of having a resource available--it 
is a state and local question, in large part, how they organize 
themselves for this kind of capacity----
    Mr. Tierney. A huge investment, I would think, right?
    Mr. Chopra. It is a huge investment, and states like 
Virginia are taking that step. I don't know as much as the 
other states in terms of how they built--but a network of 1,200 
professionals in the classrooms across the--in this example, 
one state--certainly helped to mitigate against the risk of 
fear on the technology and the poor decision making about what 
you buy and how you use it.
    And having that kind of capacity, certainly in our 
experience in Virginia was successful, and I am too early to 
have visibility into the national picture.
    Mr. Tierney. I know of only one school in my district that 
actually made a smart campus out of it or whatever, and their 
enrollment applications went up 10 percent in 1 year, because 
students want to do this.
    Mr. Real? Can you tell me, did the technology keep you 
interested in school--obviously, but did it also help inform 
what you wanted to do with your life, or was that a totally 
separate decision?
    Mr. Real. It helped me stay in school 100 percent.
    Mr. Tierney. Right.
    Mr. Real. I remember later on, I don't have much contact 
with my family, but my brother did say--the words that came out 
of his mouth, ``If I would have had what you had, I think I 
would have stayed in school.'' And for it to come out of my 
brother, it was tough.
    Mr. Tierney. Did it inform what you chose to do in terms of 
the nursing at all, or----
    Mr. Real. It had a lot to do, because I didn't know about 
any careers really. I just knew that I had to go to school. But 
once I went into healthcare, I was like, okay, healthcare, 
okay, you are going to be a doctor, but then I realized that 
there is so many careers out there.
    I mean, and then we actually had clinicals where we were 
near x-rays, and we could use technology, and I was like, I am 
going to stay.
    I am going to stay, and I am going to use everything that I 
can, and it helped me because later on, you know, when I needed 
that escape from my home life, I would go and check out so many 
medical careers online and using the Web, and that is what 
really made me stay in healthcare--that I had a variety, no 
matter where I was.
    Mr. Tierney. There is an incredible number of technology 
related jobs that are going to be available in every field, and 
so it is interesting that you say that.
    Thank you, Mr. Chairman.
    Thank you, witnesses.
    Chairman Miller. Thank you, and I want to remind members of 
the committee, the audience and others that beginning at 12:00 
in the foyer out here, there will be demonstrations of this 
technology and much more from Apple, from Carnegie Learning, 
from CASS, from Discovery Education, from eChalk, 
ExploreLearning, Froguts--you can go out and dissect a frog 
right there in the foyer if you are so inclined, Oracle 
Foundation, PBS TeacherLine, Pearson, PolyVision with the 
interactive whiteboard and demonstrations how to use that 
beyond what we saw today--from Scholastic and READ 180 and on 
and on and on and SMART Technologies and other companies that 
will be presenting out here in the foyer to staff and members 
of Congress from 12:00 until 3:00.
    Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman. A quick question for Mr. 
Chopra following on Mr. Tierney's line of questioning: In the 
$650 million that, I believe, is available under the ARRA, the 
so-called ``stimulus funding for educational technology,'' are 
their plans in the administration to either make that money or 
other money available for teacher professional development--
specific plans in light of what you were all saying just a 
moment ago?
    Mr. Chopra. Well, first of all, Congressman, I am from 
Plainsboro, New Jersey, so----
    Mr. Holt. Yes, I know you are. It is good to see here.
    Mr. Chopra [continuing]. It is a pleasure to be here. The 
department is actively working on the programs for stimulus, 
and I believe they are focused on opportunities to tackle the 
issues that we have outlined.
    I don't have specifics about the particulars of where that 
dollar funding will go, but clearly we will get back with you 
as those details come in.
    Mr. Holt. Let me drop that as a suggestion, and I would----
    Mr. Chopra. I would greatly appreciate that feedback.
    Mr. Holt [continuing]. Coming back on that. One of the 
advantages that several of you have talked about in connection 
with the educational technology is the ability to have 
immediate feedback, formative teaching experiences--in other 
words, getting back to the teachers and changing outcome by 
changing the teaching within hours or days or weeks.
    I have seen this happen in some schools, but clearly there 
are impediments to it. If we want to get the most of this--let 
me ask Dr. Hartschuh first. What do you see are the impediments 
to getting this kind of--using the educational technology in 
assessment, feedback, working with teachers to fill in the gaps 
to address conceptual problems that are identified and so 
forth.
    What are the impediments to actually getting that applied 
throughout the country?
    Mr. Hartschuh. Well, obviously, it is infrastructure and, 
you know, funding to, you know, have the equipment available to 
the students.
    We have been very successful in Delaware doing what we call 
``benchmark testing,'' where every student will sit down over a 
period of 2 weeks. They will be able to have a window of about 
2 weeks to run all the students in the school through, you 
know, their math and reading assessments.
    How they do that varies by schools depending upon the 
infrastructure that they have. Obviously, you need the number 
of computers available to the students to do this, and as we 
look at that, the biggest impediment probably at that point is 
probably the data interpretation of saying, this student is at 
level (A), another student's at level (B), another student's at 
level (C), and how you address those, you know, issues at that 
point in time, you know, the differentiated instruction 
concept, and that.
    But the bottom is that we are trying to give the teachers 
as much information about the student and where that student is 
at so that they can address those individual needs of the 
student.
    Mr. Holt. Well, let me turn to Ms. Short then, and if there 
is time to others.
    You talk about being able to record individual students or 
anonymous students. How do you decide how much of this is used 
for individual assessment, how much of it is used to guide you 
as a teacher?
    And for this to be applied throughout the school, what 
impediments do you see to using the information that is gained 
about individual students and individual classes being used to 
improve the education throughout the system.
    Ms. Short. Great question. Obviously, I can use the data in 
my instruction to determine what difficulty they are having 
with the information as it relates to my science class.
    But now in Maryland we have the science MSA, and let's say 
my colleague and I develop questions that relate to specific 
areas of the science MSA test, and we do it as a 5-minute warm 
up before we begin our lesson each day, and over the course of 
2 weeks, we can determine if their level of inference ability 
is low, then we can target students on just that ability.
    Or if they are unable to target the main idea, we can do 
that as well. In our math curriculum, or in our reading 
curriculum, we have the voluntary state curriculum that is 
broken down into different indicators that you can focus on. So 
you can use that--and we actually have used that information 
throughout this past year.
    We break it down; we bring it to our instructional 
leadership team, and all of that data is looked at and 
assessed, and we try to determine strategies on how to develop 
programs and resources to help those students.
    Mr. McAuliffe. Could I also address that? If you are okay, 
I would--if I could----
    Chairman Miller. Yes, quickly. Yes.
    Mr. McAuliffe [continuing]. Situation. While our tutoring 
is done predominantly outside the traditional classroom, our 
lesson plans are driven by the assessment but then can be 
individualized as the student progresses.
    Depending on the speed at which they are progressing 
through lessons, we also have prescription monitors that will 
monitor the progress of students along with the individual 
teachers tutoring them so that those lesson plans can be 
altered as the student progresses through the program.
    And then last but not least, the parent involvement will 
also help drive any changes that are necessary for their 
curriculum.
    Mrs. Biggert. Thank you, Mr. Chairman, and I apologize for 
having two other committees at the same time. But I did want to 
ask just a couple questions.
    In addition to being a strong proponent for utilizing 
technology to improve learning, I am also interested in the 
possibility of using the new technology on the measurement 
side.
    And I am particularly concerned about this, particularly, 
in Chicago where it took them through the next school year to 
actually get the results of the tests, which didn't really 
help, I think, the learning of the students since they didn't 
know what the results were in order to plan for the next year, 
and I hope that--I don't think that that would happen again.
    But when NCLB is, I think, reauthorized, we are going to 
have to take a long, hard look at the metrics used to evaluate 
the students and calculate AYP.
    Have any of you examined the possibility of using 
computerized adaptive testing to more accurately measure the 
student achievement? Whoever would like to answer that.
    Mr. Hartschuh?
    Mr. Hartschuh. Yes. In Delaware, the Delaware Comprehensive 
Assessment System is in the process of being developed--that we 
are going to roll out in the 2010/2011 school year. That will 
be all online assessments.
    So all students in the state of Delaware will take online 
assessments in, you know, grades three through eight. They will 
be adaptive tests. At this point in time, they are adaptive--
grade level only, because that is what USDOE will allow us to 
do.
    We are hoping that down the road we will be able to move to 
an adaptive testing that goes across grade levels. So if a 
student actually is in third grade, if they, you know, need the 
adaptive testing, you know, to take them back down to second 
grade, or they are advanced enough to go to fourth or fifth 
grade, you know, we are hoping that, you know, we are going to 
be able to do that down the road once we clear some hurdles 
with that.
    Mrs. Biggert. Wouldn't that be a lot easier to have the 
growth method----
    Mr. Hartschuh. That would address the growth model that we 
are implementing right now, yes.
    Mrs. Biggert. Okay. Anybody else like to address that? Yes, 
Mr. Chopra?
    Mr. Chopra. Congresswoman, I would just make a general 
observation. If you looked at the retailing industry, the level 
of data and analytics available for them to know if I buy milk 
on Wednesday that they should up sell me to Oreo cookies 
because of my historical patterns--the level of analytical 
rigor in those kinds of decision making by the retailing 
sector, if you compared that with this very basic question that 
we are asking today, does student performance improve by the 
video clip that Discovery showed, or the lesson methodology 
that Ms. Short described for a particular day, or a chapter of 
content that is going to be taught over a course of weeks?
    It is very difficult when I look at what I see happening in 
other aspects of our economy where we have measured to the nth 
degree the best value of resources against challenges.
    It is challenging for me to think about where we are in the 
ability to cross content quality, teacher quality--all the 
various elements in order to make the kind of management 
decisions necessary to improve student performance.
    I hope as we move forward in the initiatives that are 
underway, we will see a more attention focused on how we can 
think more broadly about these analytical capabilities, and I 
think there is great potential if we were to do that correctly.
    Mrs. Biggert. That kind of addresses the other part of this 
question, and that is: How do we measure, I think, and evaluate 
the populations like special ed and then the extremely gifted, 
or how do we move to be able to address, not only just the 
student, but how to address those populations.
    I think one of our biggest problems has been with the 
special ed when we have been asking them to take a test for 
their age group of like, say, fourth grade, but they are really 
reading at first grade level.
    Anyone care to address that?
    Mr. Hartschuh?
    Mr. Hartschuh. Well, yes. One of the bigger issues you have 
with the paper-pencil test is it is very difficult to be 
adaptive with that.
    The students with disabilities are obviously--the online 
assessment will be to their advantage. In Delaware we are 
starting to design our system.
    The one thing that we are doing is multiple opportunities 
to take the state test--not only one, but again--students with 
disabilities, you know, there can be multiple adaptations for 
them, you know, to address their needs.
    Mrs. Biggert. Just one other--I think one of the things 
that has bothered me is that with those kinds of tests, when we 
have the difference between the NAPE tests and then the state 
tests and sometimes the difference where the--for example, the 
number one state on there as they plan their test, and then 
ranking at the bottom of the NAPE test--would there be an 
integration?
    Are we going to--I am not--I think that, you know, local 
control is so important. With this technology, would we be 
moving more toward the national test? Is that a concern of 
anyone or is that a benefit?
    Chairman Miller. Anyone?
    Mrs. Biggert. I guess we will wait until next year when we 
start addressing that to get the answers. Thank you----
    Mr. Hartschuh. Well, I might not be able to address that 
directly, but in our program, again, as I said before, you take 
a national assessment test at the beginning of that, and the 
lesson plan is derived from that assessment.
    Those lesson plans are now aligned in our program to all 
the state standards. So depending on what state that student is 
living in or residing in, we align that program with our state 
standards with, as I mentioned before, our goal of trying to 
improve their performance on the state standard test.
    Mrs. Biggert. Thank you.
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman, and I apologize for 
not being here for your entire presentation, because it is so 
interesting.
    I want to talk about the cost of professional development. 
In looking at what this will be, just a snap shot in time, 
can't we assume--or can we assume--let's put it that way--that 
all colleges are teaching curriculum or teaching courses that 
could use computers in college and kids, when they graduate as 
instructors, they are comfortable with computers? Okay. I am 
assuming that, okay.
    Then I am assuming that at least a quarter of all 
instructors now are like Ms. Short who are there. I mean, they 
are there. They know what this is all about. We don't have to 
take them back and pay for their professional development.
    So what do we have? We have a certain time to bring 
everybody else up to speed. So that is not going to be as huge 
as we think it is. I mean, but we need to know what it is.
    So, Mr. Chopra, have you looked at it from that 
perspective? Because when we think about every single 
instructor coming and already there and all that, it is not 
everybody; it is just a certain group.
    Mr. Chopra. Well, I might pivot the question in a slightly 
different direction.
    Ms. Woolsey. Okay.
    Mr. Chopra. Professional development to what end? I think 
``to what end'' part is still an open question. In other words, 
what particular package of technology based educational content 
or innovation or however you want to describe it is actually 
the key to the performance results we are trying to achieve?
    Ms. Woolsey. Let me ask a question in the middle of this.
    Mr. Chopra. Yes.
    Ms. Woolsey. So wouldn't it depend on the grade level and 
what the class is teaching----
    Mr. Chopra. So there is a basic level of understanding with 
technology in the classroom that presumably we are in the 
pipeline learning more and more about, and there is a gap. I 
appreciate that sentiment.
    But the bigger question is: As we study the impact of what 
exactly is it about what Ms. Short was doing with the 
interactive whiteboard--if we understood the nature with which 
she had used that tool to deliver performance, then it is the 
training and professional development about the use of the 
device not so much the--how do you flip the switch and make 
sure that the buttons work, but the methodology by which she 
incorporated it into the classroom.
    It is a slightly different question that I think even if 
someone is familiar with the technical hardware, I would still 
imagine her peers would welcome professional development to 
learn how she chose to integrate the tool into the actual 
coursework itself.
    So it is not so much, I know how to use my cell phone, it 
is, I know I am thinking about the meaningful applications for 
the use of--they happen to happen to be using the cell phone 
but will deliver educational performance.
    Ms. Woolsey. But doesn't that replace then the ongoing 
professional development that we provide educators anyway? I 
mean, it doesn't have to be more----
    Mr. Chopra. My hope is that it is integrated----
    Ms. Woolsey. Integrated with, right.
    Mr. Chopra [continuing]. Presumption is that part in parcel 
with how you teach----
    Ms. Woolsey. Right.
    Mr. Chopra [continuing]. The ongoing work of professional 
development integrated into that curriculum, I hope, would be 
opportunities to take the best learning we have seen and have 
that be blended as one. It is not technology unto itself. It is 
aligned with an educational outcome goal.
    Ms. Woolsey. Well, I want to add one more thought, and then 
anybody that wants to respond to it while I still have time--
devices spoil like apples and oranges and vegetables.
    I mean, how do we keep up with that? And how does Europe 
keep up with everything--technology changing and the programs 
changing. So how do we keep up with that financially?
    How does Europe do it?
    Mr. Chopra. I couldn't speak intelligently about European 
practices, but there are best practices in IT management. So we 
are making a general hypothesis that over time, a greater share 
of a school's operating budget might involve technology 
maintenance and operations.
    And as that is happening in every sector of our economy, 
candidly. And so to the extent that there are best practices, 
whether it is in healthcare, energy sector, you name it, there 
are strategies that thoughtful IT leaders have deployed to 
think about ways to keep technology fresh, staff trained, 
mitigate security threats--that is a capability that schools 
will be building up over time.
    There will likely be a schools gap into their capacity, and 
I am sure there would be some broader discussions at state and 
local levels all over the country on how to--best practices in 
IT management and governance.
    But I am confident there are models that are there. We 
certainly have explored them at the federal level. There are 
opportunities at the state and local, but I wouldn't imagine a 
unique perspective in education on those areas.
    That is really a broad discipline.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Mr. Tonko. Thank you, Mr. Chairman. When we look at general 
education, there is always a concern about the basic foundation 
being developed in the elementary settings. Are there any 
insights you can provide in terms of just what may be best to 
do to help those students who may not link to technology early 
on in that elementary setting, or are there particular things 
that are being done to cultivate the best outcomes in that 
beginning setting?
    Anyone?
    Ms. Bergland [continuing]. Not really sure exactly what you 
were asking.
    Mr. Tonko. Well, okay. The issue of technology becomes very 
important as you move through middle schools and high school.
    Are there particular problems or connections that you see 
that need to be addressed in the elementary grades--pre-K 
through, say, five, six--that, you know, some students don't 
take to math or science. Are there students not taking to 
technology and, if so, how do you reach them? Are there 
concepts that you have developed? Are there----
    Ms. Bergland. Well, every year they do a huge national 
survey of students K-12 and parents and teachers, and 
interestingly, some of the highest users of technology and even 
the higher in technology are our elementary children.
    They are doing the virtual worlds. There is a place called 
``Second life,''--they are not using that, but they are using 
the Webkinz or--those of you that have small children will know 
those--but, you know, so they are--our younger kids are the 
ones that we are really watching, because we know when they hit 
middle school and high school, they are even more engaged in 
the technology outside of school than they are than even our 
kids at the middle school and high school.
    So I think that the assumption that maybe how do we engage 
them, I think that is already happening.
    Mr. Tonko. Ms. Short?
    Ms. Short. One of the purposes for our technology and 
modernization and also our middle school reform is that 
research has shown that students scores started to drop off in 
middle school, and we needed to become more engaging in our 
lessons.
    I can't speak to elementary schools, but I know that the 
reason why this big technology push came about was because of 
research showing that our students scores dropped off in middle 
school.
    Mr. Tonko. Mr. McAuliffe?
    Mr. McAuliffe. Yes. Again, because of the fact that we do 
predominantly SES tutoring outside of school, this is a little 
bit off, but what we have found is that the younger you capture 
a child and get them up to grade level, the more of a chance 
you have at success.
    And we are developing an early reading and early math 
application for our tutoring services. And again, like my 
predecessors on the panel stated, it is surprisingly how 
adaptive the children are to the technology.
    Mr. Tonko. That being said--I am sorry, Mr. Kinney?
    Mr. Kinney. Just one thing to add, I think one of the 
cautions is not to separate the conversation of technology from 
teaching and learning.
    So we know a lot in this country about how students learn. 
We know that students learn differently, and that if we can 
reach them in different ways, all the better. We know that if 
they collaborate with their peers, they will learn from each 
other. We know that if they interact with content, good things 
happen instructionally.
    And so I think even at a very young age--I have a first 
grade daughter who just recently is now going to second grade--
but is in a media generation. I mean, she is on Webkinz; she 
has a video iPod; she gets assignments from her school that 
take her online.
    And so, I think that even at those very young ages, we can 
capture them using those tools but really not just to use the 
tools, but to capture them in a way that we know we can best 
reach those students.
    Mr. Tonko. If, in fact, we need the parental involvement to 
maximize the success rate, what are some of the programs that 
you do to incorporate parents into technology literacy?
    Are there a certain concepts you would use at your given 
situations that incorporate the parents and help them to keep 
pace, especially the pre-K through five crowd is ahead of the 
curve--maybe ahead of everyone. How do you keep pace with that, 
and how do you bring parents in so they can be partners in 
education if technology's entering in?
    Ms. Bergland. We do parent training. We will have trainings 
at night for parents to come in. We even provide translators, 
because we have a large bilingual population.
    That is one of the nice things about when students have a 
laptop that goes home, we encourage the whole family to get to 
use that machine so it is not just the students, but it also 
becomes the families during that year.
    So I think that you are exactly right, we are hoping that 
our kids, particularly with our parents that don't have a lot 
of technology skills, we are hoping our kids could help teach 
their parents, just like sometimes they help teach teachers.
    Mr. Kinney. I can speak from a provider standpoint as well 
that one of the things that we do when we develop resources for 
education, certainly look at how parents will access those 
resources from home or whatever it might be.
    So we want to make sure that those are available, not just 
within the context of a classroom environment, but also 
anywhere at anytime.
    Mr. Polis. Thank you, Mr. Chairman.
    You know, in Colorado I have had the opportunity to be 
involved with the policy framework around online education, and 
I certainly realized that online education is only part of what 
we are talking about here today, and a couple of you talked 
about it in your testimony, but it is what I wanted to focus my 
remarks and questions around.
    And we had a number, and just like at the federal level, we 
will presumably be dealing with as we improve federal education 
policy--a lot of policy areas are on how we treat online 
education.
    There is a lot of jurisdictional issues that arise, 
accountability issues--not things that are inherently good or 
bad with regard to the efficacy of online education, but just a 
number of things that challenge the status quo in ways that 
hadn't really been addressed before.
    My first question is for Mr. McAuliffe with regard to 
jurisdictional issues, and whether you have had any experience 
dealing with serving students that reside in other school 
districts, other states with programs based in different 
states, and whether there is--to any degree, a policy--policy 
framework recommendations you have around some of those 
jurisdictional issues that inevitably will increase as online 
education gains popularity.
    Mr. McAuliffe. Thank you. Yes. We do run into several 
obstacles in various states. There are a couple of states, like 
Connecticut, that do not allow online providers to provide 
supplementary education services.
    There are others that, in our instance, will not allow the 
use of retaining the computer. Under our program, the student--
if they complete the program--get to keep the computer that we 
provide----
    Mr. Polis. Just a quick follow-up question on that. Is it 
the state itself, or is it district by district in those states 
you mentioned?
    Mr. McAuliffe. In Connecticut's situation, it is the state, 
and in other situations, it could be the district. The other 
big issue with signature requirements being an online provider, 
if you are required to get parents' signatures on attendance 
forms when you are not there in the state, that creates a 
problem.
    Yet, we have attendance reports that document the time in 
and the time out for the students.
    Mr. Polis. So on that second point, did you say there is a 
problem with those attendance reports being counted for state 
or district purposes?
    Mr. McAuliffe. Yes, they would not--they don't allow you to 
submit for, you know, payment if you do not have a parent's 
signature.
    Mr. Polis. So do you feel that there might be a federal 
role in encouraging best practices and establishing an 
environment where online education can operate in the 50 states 
and many districts?
    Mr. McAuliffe. Absolutely. If there were uniform 
requirements throughout the states and the districts, I think 
that it would make it more amenable to online providers.
    Mr. Polis. My next question is for Mr. Chopra. Have you, in 
your efforts--as well as your thoughts about this--have you 
identified any federal policies that are currently preventing 
or are a barrier to the implementation of new technology, or 
even more specifically, online education across the country?
    Mr. Chopra. I can tell you that the department is very 
committed to this concept and to ensure that we are moving in 
this direction.
    I think a lot of what you have heard in testimony today is 
a lot of what the department is focused on. So I don't have any 
specific barriers or road blocks identified, but a commitment 
that we will work together in uncovering them and addressing 
them.
    Mr. Polis. And then the next question is for anybody who 
would like to answer--it is also with regard to online 
education. Perhaps Mr. McAuliffe will answer.
    From my understanding, Mr. McAuliffe, your organization 
does not have--you don't serve full-time--exclusively online 
students, right? It is purely supplemental. Is that correct, or 
do you have students for the whole day as well?
    Mr. McAuliffe. The predominant amount of work that we do is 
with supplemental education students. We do do some, what we 
call ``in-school,'' where a student or a group of students will 
be taken out of the classroom to get additional tutoring during 
the school day. We also provide that.
    Mr. Polis. You know, then by way of commentary leading to a 
quick question, we, in Colorado have over 3,000 students that 
are exclusively enrolled online.
    So they are taking all their courses online for a variety 
of reasons. Some of them are homebound, some of them feel 
unsafe at school, some of them move at a pace that is either 
too fast or slower than the traditional classroom. So there is 
a variety of ways that that is occurred.
    Currently, there is no federal problems with that, but 
again, I think it is really state by state in terms of whether 
that is allowed and how that is allowed. I would like to see if 
any of you would like to comment on this concept of full-time 
students that are basically taking all their courses online, 
and whether you think that that is something that we need any 
separate accountability for.
    And we are out of time. So I will just add that that is 
something that we should consider that there also are students 
who are exclusively taking the full of their courses online.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you very much. I want to thank the 
members of the panel, and the members of the committee for 
their participation this morning.
    It seems to me that we are in a bit of a race here. We are 
going to be inheriting children--from all social economic 
levels--that may not have a computer at home, but they can 
borrow their iTouch from somebody else. They are going to 
become more and more proficient with the complexities of 
technology and, in fact, with the efficiencies of technology.
    And I fear, that if we do not adapt schools to integrate 
and imbed technology in the instructional day, how these 
students are going to turn out.
    Now the problem I see is that they are mastering more and 
more complex technologies. And whether the school budgets and 
our ability to integrate--as somebody said, don't separate the 
technology from the education.
    We never thought of separating the textbook from education. 
We just assumed they went together, and they had to be 
beneficial and work together. But this is interesting.
    You know, when you see very young kids game, and you watch 
them make risk assessments, develop particular proficiencies, 
get advice from their friends how to develop those 
proficiencies what is the way that you can master this level; 
what is the way you can game this level so you can get around 
it to go somewhere else without having to go through it; they 
are demonstrating an array of qualities that, as I said in my 
opening statement, a lot of employers would die to have.
    There is a competition. I am trying to think who runs it--I 
think it was Sun, but they are young Web page developers from 
all over the world, and they bring them to California for 
awards, and they are generally 8, 9, 10, 11, 13 years old, and 
I think there are some older students.
    And at the end of the weekend, as they tell them, here is 
our address, if any of you want a job, just e-mail us, because 
we will hire you now. So, you see this incredible talent that 
is being demonstrated, and you have seen it in your classes; 
you have seen it in the districts that you work with.
    And somehow the race is to integrate the educational 
opportunities for these students with this technology that 
really, in many ways, as Mr. Real pointed out, brings out all 
of that potential, all of that excitement of learning.
    And there are some big mismatches, obviously, across the 
country in states and in local districts, and in individual 
schools and in individual classrooms. Huge mismatches between 
the potential and the opportunity of technology and the 
resources available, either to manage it or to use it or to 
learn from it.
    I think this is a very exciting moment for American 
education. I think the ability and the kinds of resources that 
we can offer to teachers to better understand what they are 
doing; the success of what they are doing; the needs of their 
students on a real-time basis.
    I mean this business we are in--most of this country, we 
give you an annual test, and then we try to figure out if the 
kids still in our district, in our state, and what is this 
information telling you now that it is October or November of 
the next year--has got to stop.
    And I, you know, I think what you are doing in Delaware is 
exciting to have that kind of real-time assessment. I know very 
often, we go through this idea that teachers are afraid of 
this; they don't like it; it is not the way they did business.
    But what we see is when you really have a first-class 
opportunity to integrate this into their daily lives and 
instruction, how much they start to embrace it, and really see 
this as a very helpful tool for them.
    This is a series of hearings. We are going to look at some 
of these other opportunities for students, and what it tells us 
about their skills, their talents, and their abilities and how 
we continue to try to match this up.
    I think that, hopefully, this will be integrated into part 
of the national task force working on common standards to be 
internationally benchmarked, and how do we adapt technology so 
that, in fact, that will flow back through the schools.
    I think that is going to be exciting. It is going to be 
challenging. It is going to require a commitment of very 
substantial resources, but I suggest a lot of that money is 
already being committed on resources that are almost obsolete 
today.
    They are put into the classroom, and they become very 
cumbersome for students and for families to participate in 
these educational opportunities and teaching moments, as we 
say.
    So thank you very much for all of your participation and 
your expertise. If you don't mind, as we continue on, we might 
double back and ask you for some advice and help on our actions 
in this committee.
    Again, I would like to remind the audience and members that 
in the foyer just down the hall here, we will have a 
demonstration of many of these technologies and others that are 
available to students.
    And, Mr. Real, I think you are running a video? Are you 
not, there? Yes.
    Ms. Short, do you have an avatar on Second Life yet? No. 
Yes, you do?
    Ms. Short. Yes.
    Chairman Miller. So do you go there and do your students 
have avatars and show up for class?
    Ms. Short. [OFF MIKE]
    Chairman Miller. No. [Laughter.]
    Okay. Thank you very much. With that, the committee will 
stand adjourned.
    [The statement of Mrs. McMorris Rodgers follows:]

Prepared Statement of Hon. Cathy McMorris Rodgers, a Representative in 
                 Congress From the State of Washington

    Thank you Chairman Miller, I want to thank our witnesses who are 
here today to report on findings and make recommendations on how 
technology is transforming and improving our nation's classrooms.
    Over the last 15 years, our nation has made significant progress 
integrating technology into the classroom. In 1994, only 35 percent of 
public schools had internet access. Today, nearly 100 percent of 
schools do. States, local educational agencies, and schools are using 
technology to educate students in ways that engage them and increase 
their achievement levels; support professional development for teachers 
and administrators; and engage and empower parental involvement in 
their children's involvement.
    Research reveals that technology can improve student achievement, 
particularly in the areas of reading, writing, and mathematics. In 
fact, a study conducted by the Software Information Industry 
Association examining the effectiveness of technology on student 
achievement found ``significant gains in achievement in all subject 
areas; increased achievement in preschool through high school for 
regular and special needs children; and improved [student] attitudes 
toward learning and increased self esteem.''
    I believe that technology in our schools, particularly in the areas 
of math and science, will continue to play a key role in ensuring that 
the students of today and tomorrow will have the skills needed to keep 
our nation competitive into the 21st century. To meet the demands of an 
increasingly advanced and global market we must better train and equip 
our nation's workforce. This starts with education and making sure 
students have the skills needed to be effective leaders. Current 
statistics reveal that one in three students will not graduate from 
high school. Too often, students enter high school and college 
unprepared to succeed leaving them ineffective in the workplace. 
Moreover, one in three of our students do not graduate from college. 
This is unacceptable. We must invest in infrastructure that engages and 
inspires them.
    However, along with the good, comes the bad. Advances in technology 
have enabled predators to trespass into our homes, schools, and 
communities. Technology provides our children with access to 
inappropriate material. We must remain vigilant in our efforts to 
protect them through every mechanism possible, including ensuring that 
we as lawmakers stay one step ahead.
    As a member of this committee, I am committed to ensuring that 
every child in America has access to the best possible education.
    I look forward to hearing from our witnesses and thank them again 
for the time and work.
                                 ______
                                 
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
